      SIGAR                                          Special Inspector General for
                                                     Afghanistan Reconstruction




                                                                     SIGAR Audit 13-1



       AFGHAN NATIONAL SECURITY FORCES
       FACILITIES: CONCERNS WITH FUNDING,
       OVERSIGHT, AND SUSTAINABILITY FOR
       OPERATION AND MAINTENANCE




                                                                        OCTOBER
                                                                        2012
SIGAR Audit 13-1/O&M Contracts for ANSF Facilities
SIGAR
Special Inspector General for
                                                     October 2012
                                                     Afghan National Security Forces Facilities: Concerns with Funding,
                                                     Oversight, and Sustainability for Operation and Maintenance


Afghanistan Reconstruction
                                                     SIGAR AUDIT 13-1
WHAT SIGAR REVIEWED
In February 2011, the North Atlantic                 WHAT SIGAR FOUND
Treaty Organization Training Mission-
Afghanistan (NTM-A) developed the                    The Afghan government will likely be incapable of fully sustaining ANSF
Infrastructure Training Advisory                     facilities after the transition in 2014 and the expected decrease in U.S.
Group (ITAG) Campaign Plan, which                    and coalition support. The Afghan government’s challenges in assuming
calls for the transition of operation                O&M responsibilities include a lack of sufficient numbers and quality of
and maintenance (O&M) of Afghan                      personnel, as well as undeveloped budgeting, procurement, and logistics
National Security Forces (ANSF)                      systems. We found:
facilities to the Afghan government
and full Afghan-led sustainment by                            As of June 1, 2012, the Afghan government had filled less than
2014. Because the Afghan                                       40 percent of authorized O&M positions. U.S. officials cited
government currently lacks the                                 salary discrepancies between these ANSF positions and private
capacity to provide O&M, NTM-A                                 sector jobs, such as contract positions, as a prime factor in the
obligated $800 million to fund these                           lagging recruitment efforts.
services for ANSF facilities across                           The ANSF lacks personnel with the technical skills required to
Afghanistan until the Afghan                                   operate and maintain critical facilities, such as water supply,
government is able to handle O&M.                              waste water treatment, and power generation.
In July 2010, the U.S. Army Corps of
                                                              The Ministry of Defense’s procurement process is unable to
Engineers (USACE) awarded two
                                                               provide the Afghan army with O&M supplies in a timely manner.
contracts covering the northern and
                                                               The Ministry of Interior did not make its first budget allocation for
southern parts of the country to ITT
                                                               O&M at police sites until March 2012.
Exelis Systems Corporation (Exelis) to
provide O&M for ANSF facilities and                           As of August 1, 2012, 25 sites had started the transition process.
to train ANSF workers on the required                          However, USACE had not yet developed a plan and procedures
trade skills. As of early June 2012,
the contracts covered 480 facilities—
about 45 percent army and 55
percent police—ranging from large
Corps headquarters to smaller police
district headquarters. This report
assesses the extent to which (1)
NTM-A and USACE are developing the
capacity of the ANSF to sustain its
facilities after full transition in 2014,
(2) Exelis has implemented the O&M
contracts within the contracts’ terms,
and (3) USACE and Exelis have
provided oversight of the contracts.
SIGAR conducted this work in seven
provinces in Afghanistan from July
2011 to October 2012 in accordance
with generally accepted government
auditing standards.


                                                    O&M trainees repairing heating and air conditioning units of barracks at the Kabul
                                                    Military Training Center, SIGAR site inspection, October 2011.


       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
          for removing partial facilities from the contracts
          and continued to pay O&M costs for structures
          that were no longer covered under the
          contracts.
NTM-A and USACE have taken some steps to develop
the Afghan government’s capacity to provide O&M, such
as training and mentoring ANSF personnel, but the
Afghan government has resisted some of these
measures. For example, the Ministry of Interior would
not add O&M positions, even though it acknowledged
that ANP facility engineer sections need to grow to meet
increased demand.
With respect to USACE’s contracts to provide O&M until
the Afghan government develops the necessary
capacity, we found that Exelis generally invoiced and
provided O&M services in accordance with the terms of
the contracts. Exelis had difficulty mobilizing during the
initial phase of the contracts, slowing contract
implementation.
         Factors outside the contractor’s control,
                                                                          Main electrical panel at Police District 3 in
          including harassment of contractor personnel,
                                                                          Kabul, SIGAR site inspection, January 2012.
          poor construction quality, and irregular fuel
          deliveries, disrupted O&M services and, if this
          continues, may lead to increases in contract
          costs.
                                                                           WHAT SIGAR RECOMMENDS
         NTM-A analysis projects that the northern                        SIGAR is making three
          contract will run out of funding in March 2014,                  recommendations to the Commander
          16 months before the end of the contract                         of the USACE Middle East District. To
          period of performance. As a result, USACE will                   ensure that USACE funds are
          have to award and fund a new contract to                         expended in accordance with the
          provide continued O&M coverage.                                  O&M contracts and enhance contract
                                                                           oversight, SIGAR is recommending
Oversight varied across and within the two O&M                             that USACE (1) complete its plan and
contracts, which may decrease USACE’s ability to                           procedures for removing partial
ensure that Exelis is providing services in accordance                     facilities from the contracts and
with contract requirements.                                                reclassifying these facilities, (2)
         USACE officials implemented ad hoc oversight                     implement standardized procedures
          and reporting procedures to oversee the two                      for overseeing the two contracts, and
          contracts in lieu of standardized quality                        (3) direct Exelis to fully implement its
          assurance procedures, causing variations in                      quality control program in southern
          the quality of reporting and frequency of site                   Afghanistan. USACE concurred with
          inspections.                                                     the recommendations and described
         Implementation of Exelis’ quality control                        specific steps it is taking to address
          program in the south was incomplete. Exelis                      them.
          conducted few site visits to facilities in the
          south, and the contractor had not staffed hub
          locations in two southern provinces.




For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
October 30, 2012


The Honorable Leon Panetta
   Secretary of Defense

General James N. Mattis
  Commander, U.S. Central Command

General John R. Allen
  Commander, U.S. Forces – Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger
   Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
   U.S. Army Chief of Engineers and
   Commanding General, U.S. Army Corps of Engineers


This report discusses the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s (SIGAR) audit of ITT Exelis Systems Corporation’s (Exelis) implementation of
two U.S. Army Corps of Engineers (USACE) contracts for operation and maintenance at Afghan
National Security Forces (ANSF) facilities throughout Afghanistan. We found that despite
ongoing capacity development, the Afghan government continues to face challenges that will
likely prevent it from fully sustaining ANSF facilities after the 2014 transition. Further, although
Exelis generally invoiced and provided services in accordance with the terms of the contracts,
its northern contract is projected to run out of funds in March 2014, 16 months short of the
full period of performance, and Exelis has not fully implemented quality control efforts for its
southern contract. This report recommends that USACE (1) implement standardized
procedures for overseeing the two contracts, (2) direct Exelis to fully implement its quality
control program in southern Afghanistan, and (3) complete its plan and procedures for
removing partial facilities from the contracts and reclassifying these facilities in order to reduce
O&M costs.
When preparing the final report, we considered comments from USACE. These comments are
reproduced in appendix VI. USACE concurred with the three recommendations. SIGAR
conducted this performance audit under the authority of Public Law No. 110-181, as
amended; the Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko
Special Inspector General
  For Afghanistan Reconstruction
                                            TABLE OF CONTENTS


Background .................................................................................................................................................................. 2 
Afghan Government Continues to Face Challenges Sustaining ANSF Facilities ...................................................... 5 
Exelis Generally Invoiced and Provided Services within the Contracts’ Terms, but External Factors Affected
     Execution, and Funding for the Northern Contract May Be Insufficient ........................................................ 11 
Quality of Contract Oversight Varied ......................................................................................................................... 17 
Conclusions ................................................................................................................................................................ 19 

Recommendations .................................................................................................................................................... 20 
Agency Comments ..................................................................................................................................................... 21 
Appendix I - Scope and Methodology ....................................................................................................................... 22 

Appendix II - Cost Structure of O&M Contracts and Services Provided .................................................................. 25 
Appendix III - Task Orders and Modifications to the Northern O&M Contract, W912ER-10-D-0002 ................... 26 
Appendix IV - Task Orders and Modifications to the Southern O&M Contract, W912ER-10-D-0003 ................... 31 
Appendix V - ANSF Site Details ................................................................................................................................. 35 
Appendix VI - Comments from U.S. Army Corps of Engineers ................................................................................. 42 
Appendix VII - Acknowledgments .............................................................................................................................. 45 


TABLES

Table 1 - Estimated value of O&M Contracts by Year ................................................................................................ 3 
Table 2 - O&M Training Locations by Contract as of June 15, 2012 ...................................................................... 10 
Table I - Examples of Services Provided under the O&M Contracts by Functional Area ....................................... 25 
Table II - Modifications to Northern O&M Base Contract W912ER-10-D-0002 ..................................................... 26 
Table III - Modifications to Northern O&M Base W912ER-10-D-0002, Task Order 0002 ..................................... 27 
Table IV - Modifications to Northern O&M Contract W912ER-10-D-0002, Task Order 0003 ............................... 29 
Table V - Modifications to Southern O&M Base Contract W912ER-10-D-0003 .................................................... 31 
Table VI - Modifications to Southern O&M Contract W912ER-10-D-0003, Task Order 0002 .............................. 32 
Table VII - Modifications to Southern O&M Contract W912ER-10-D-0003, Task Order 0003 ............................. 34 


FIGURES

Figure 1 - Details of O&M Contracts ........................................................................................................................... 4 

Figure 2 - Eastern Style Toilet in Good Repair in Latrine at Police District 3, Kabul ............................................. 12 



SIGAR Audit 13-1/Contractor Performance and Oversight/O&M Contracts for ANSF Facilities                                                                               Page i
Figure 3 - Operational Sink in Latrine at Camp Hero, Kandahar ............................................................................ 12 

Figure 4 - Hospital Emergency Room Clean and Well Maintained at Camp Hero, Kandahar ............................... 13 
Figure 5 - Lights and Fans Operational in Barracks at Camp Shaheen in Mazar-e Sharif, Balkh ........................ 13 
Figure 6 - Repaired Wiring in Electrical Panel in 8th Commando Camp Maintenance Building ............................ 14 

Figure 7 - Disconnected Heating Units in 8th Commando Camp Maintenance Building ....................................... 14 
Figure 8 - Corroded Steel Pipe at the Joint Regional Afghanistan Security Forces Compound Water Treatment
     System ............................................................................................................................................................... 15 
Figure I - Locations of ANSF Sites Visited during Audit............................................................................................ 35 




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                                                                  Page ii
ABBREVIATIONS AND ACRONYMS

             ANA                       Afghan National Army
             ANP                       Afghan National Police
             ANSF                      Afghan National Security Forces

             AQAR                      Afghan Quality Assurance Representative
             ENG                       Engineer Directorate
             CPMD                      Construction and Property Management Department
             COR                       Contracting Officer’s Representative
             Exelis                    ITT Exelis Systems Corporation
             GSU                       garrison support unit

             ITAG                      Infrastructure Training Advisory Group
             MOD                       Ministry of Defense
             MOI                       Ministry of Interior

             NTM-A                     North Atlantic Treaty Organization Training Mission-Afghanistan
             O&M                       operation and maintenance
             PCO                       Primary Contracting Officer

             POL                       petroleum, oil, and lubricants
             SIGAR                     Special Inspector General for Afghanistan Reconstruction
             TAM                       Middle East District
             TAN                       Afghanistan Engineer District-North
             TAS                       Afghanistan Engineer District-South
             USACE                     U.S. Army Corps of Engineers




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                       Page iii
A key objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghan National Security Forces (ANSF), which consist of the Afghan National
Army (ANA) and the Afghan National Police (ANP). Between fiscal years 2002 and 2012, the U.S. Congress
appropriated $52.15 billion to equip, train, base, and sustain the ANSF. Approximately $11.7 billion of this
amount has been appropriated for the construction of ANSF facilities. In our prior audits of U.S.-funded ANSF
construction projects, we expressed concerns about the Afghan government’s ability to sustain these facilities
in the absence of U.S. and coalition support, thus risking that U.S. investment will not be sustained after an
expected significant decrease in international support after 2014.
In February 2011, the North Atlantic Treaty Organization Training Mission-Afghanistan (NTM-A) developed a
plan to transition operation and maintenance (O&M) of ANSF facilities to the Afghan government by the end of
2014.1 In an effort to ensure that facilities are maintained until the ANSF is capable of doing so, NTM-A
obligated $800 million to fund these services for Afghan army and police facilities across Afghanistan.2 In July
2010, the U.S. Army Corps of Engineers (USACE) awarded two firm-fixed-price contracts to ITT Exelis Systems
Corporation (Exelis) to provide O&M for facilities in northern and southern Afghanistan.3 The contract covering
facilities in the northern provinces is valued at $450 million and the contract covering the southern provinces
at $350 million. The services include the O&M of buildings, structures, and utility systems and pest control.
The contracts also require Exelis to train ANSF workers on the trade skills required for O&M.
This report assesses the extent to which (1) NTM-A and USACE are developing the capacity of the ANSF to
sustain its facilities after full transition in 2014, (2) Exelis has implemented the O&M contracts within the
contracts’ terms, and (3) USACE and Exelis have provided oversight of the contracts.4
To accomplish our objectives, we reviewed and analyzed the two USACE O&M base contracts, task orders, and
modifications, as well as all contractor invoices submitted through May 2012. In addition, we reviewed USACE
acquisition strategies and contract planning documents and relevant clauses in the Federal Acquisition
Regulation and USACE’s Engineer Regulation. We analyzed USACE quality assurance reports submitted by
Contracting Officer’s Representatives (COR) and Afghan Quality Assurance Representatives (AQAR). We also
examined Exelis documents, including quality control and training plans, site visit reports, preventative
maintenance inspection schedules, and incident reports. We examined the NTM-A Engineer Directorate (ENG)
Infrastructure Training Advisory Group (ITAG) Campaign Plan, facility assessments, and transition plans. We
conducted site visits to 20 facilities at 11 ANA and ANP sites.5 In addition, we interviewed ENG, ITAG, USACE



1U.S. and coalition nations plan to end their combat role in Afghanistan by the end of 2014, which will involve the
withdrawal of a significant number of military forces and resources.
2While NTM-A oversees ANSF O&M efforts, the Combined Security Transition Command-Afghanistan funds the two
contracts via the Afghanistan Security Forces Fund.
3USACE awarded the O&M contracts to ITT Systems Corporation. In late 2011, the company changed its name to ITT Exelis
Systems Corporation. USACE modified the contracts to reflect this name change.
4 When we initiated this audit, the Department of Defense Office of Inspector General was conducting a related audit of the
training portion of the O&M contracts to determine if training was effective in developing the ANSF’s infrastructure
maintenance capabilities (see DODIG-2012-104, DoD Needs to Improve Vocational Training Efforts to Develop the Afghan
National Security Forces Infrastructure Maintenance Capabilities, June 18, 1012). To avoid duplication, we limited our first
two audit objectives to Exelis’ execution of the O&M services portion of the contract.
5 The O&M contracts cover ANSF facilities rather than entire army and police sites or bases. Some sites consist of multiple
facilities with each facility supporting a different mission. For example, the ANP’s Joint Regional Afghanistan Security
Forces Compound consists of four facilities: (1) Border Police zone headquarters, (2) Uniform Police regional headquarters,
(3) Afghanistan National Civil Order Police headquarters, and (4) Regional Logistics Center. Each of these facilities
supports a different police mission. Thus, the number of sites covered under the contract is lower than the number of



SIGAR Audit 13-1/Contractor Performance and Oversight/O&M Contracts for ANSF Facilities                               Page 1
Transatlantic Division, Exelis, subcontractor, and ANA officials. We conducted our work in Kabul, Kandahar,
Uruzgan, Herat, Balkh, Paktya, and Farah provinces in Afghanistan from July 2011 to October 2012 in
accordance with generally accepted government auditing standards. A discussion of our scope and
methodology is in appendix I.


BACKGROUND

As part of NTM-A’s efforts to develop a fully capable and self-sustaining ANA and ANP, ENG aims to develop the
capacities of the Ministries of Defense (MOD) and Interior (MOI),6 from the ministerial to the field levels, to
maintain ANSF facilities.7 The ITAG Campaign Plan, approved in early 2011, describes ENG and ITAG8 strategy
for accomplishing this effort. According to the plan, ITAG’s mission is to provide training, mentorship, and
synchronization of O&M efforts at ANSF sites in order to ensure ANSF-led facility sustainment. The main
objectives of the plan are to increase ANSF O&M capabilities and to solve systemic problems of manning,
equipping, training, and budgeting in order to transition facilities and their sustainment to the Afghan
government by the end of 2014.
Because the Afghan government lacked the capacity to provide O&M, the USACE Middle East District (TAM),
under NTM-A direction, awarded in 2010 two firm-fixed-price indefinite delivery/indefinite quantity service
contracts to Exelis to provide O&M for ANSF facilities across Afghanistan.9 On July 26, 2010, USACE-TAM
awarded contract number W912ER-10-D-0002, worth $450 million, to cover ANA and ANP facilities in northern
Afghanistan. 10 USACE-TAM awarded contract number W912ER-10-D-0003, valued at $350 million, on July 27,
2010, to cover facilities in the southern part of the country.11 Exelis in turn uses subcontractors to execute the
work.12 The two contracts each consist of 1 base year plus 4 option years and may cover more than 800
facilities over the life of the contracts. The contracts’ fourth option year may be exercised if all ANSF facilities
are not transferred to the Afghan government by 2014. USACE-TAM signed the notices to proceed for the


facilities. Each facility further consists of a set of buildings and structures required to support the occupying entity’s
mission. For example, an army Corps headquarters as one facility and mission consists of more than 150 buildings and
structures, including barracks, latrines, dining facility, guard towers, power plant, administration buildings, and
warehouses.
6   MOD and MOI oversee the ANA and ANP, respectively.
7 Prior to the NTM-A/Combined Security Transition Command-Afghanistan’s reorganization in fall 2011, ENG was known as

the Combined Joint Engineering Directorate.
8NTM-A approved the creation of ITAG under the command of ENG in January 2010, although it did not become
operational until December 2010.
9 Although Exelis was awarded both contracts, its program offices in northern and southern Afghanistan implement their

respective contracts independently, as required by the contracts, with oversight from Exelis’ Middle East Office in Qatar.
10 Prior to July 2010, USACE provided O&M services at ANSF facilities under six separate contracts. USACE awarded the
predecessor O&M contract for ANA facilities throughout Afghanistan to Contrack International Incorporated. Prior to the
current O&M contracts, one Afghan firm, Afghan Armada, provided O&M at ANP facilities under five separate contracts with
USACE. Due to poor contractor performance, USACE did not exercise any options on the ANP contracts and awarded a
bridge contract to ensure continuation of O&M services.
11Approximately $27 million of the total contract value for each O&M contract is specifically for spare parts, materials,
supplies, and specialty tools.
12USACE awarded the contract to Exelis because it submitted the lowest acceptable bid proposal. Exelis subcontracted
with Contrack International Incorporated, the prime contractor on the predecessor ANA O&M contract, to provide services
under both contracts. Exelis has utilized other subcontractors, such as ANHAM and local Afghan companies, but Contrack
has been the primary subcontractor since the early phases of contract implementation.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                    Page 2
contracts on July 28 and 30, 2010, which initiated the phase-in period. The base year of each contract began
on November 1, 2010. As of June 5, 2012, the total costs of the O&M contracts were approximately $222
million and $104 million for the north and south, respectively, for a total of $326 million. The contracts
covered 480 army and police facilities.
O&M services provided under the contracts include building and structures maintenance; utility systems O&M;
and heating, ventilation, and air conditioning systems O&M. The contracts also require Exelis to train ANSF
workers on the required O&M trade skills, such as electrical, plumbing, and sewage treatment plant operation,
through formal vocational and managerial training, on-the-job training, and job shadowing. Appendix II
describes the cost structure of the contracts and lists examples of the services provided under the contracts.
Table 1 shows the estimated value of each O&M contract by year; figure 1 provides information on the
contracts, including the provinces covered under each contract.


Table 1 - Estimated value of O&M Contracts by Year
                                                          Contract Value (in millions)

Contract Number                       Base Year      Option #1      Option #2      Option #3        Option #4     Total
                                     (July 2010-    (July 2011-    (July 2012-    (July 2013-      (July 2014-
                                     July 2011)     July 2012)     July 2013)     July 2014)       July 2015)

W912ER-10-0002 (North)              $75            $75            $100           $100             $100            $450

W912ER-10-0003 (South)              $50            $75            $75            $75              $75             $350
Source: USACE contract numbers W912ER-10-D-0002 and W912ER-10-D-0003.
Note: The dates provided indicate the ordering period for each contract year. Due to the difference in award dates, the
ordering periods for the northern O&M contract begin on June 27 and end on July 26 of the following year while the
ordering periods for the southern contract begin on July 28 and end on July 27.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                   Page 3
Figure 1 - Details of O&M Contracts




Source: USACE contract numbers W912ER-10-D-0002 and W912ER-10-D-0003, task orders, and modifications.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                      Page 4
USACE-TAM maintains Primary Contracting Officer (PCO) responsibilities for the two O&M contracts, and only
the PCO can modify the base contracts and execute task orders. For example, the PCO issues notices to
proceed and exercises option years by issuing task orders off the base contracts. USACE-TAM delegated
Administrative Contracting Officer responsibilities for the northern and southern contracts to Afghanistan
Engineer District-North (TAN) and Afghanistan Engineer District-South (TAS), respectively.13 The Administrative
Contracting Officers monitor and approve work orders,14 and can execute modifications to task orders written
on the base contracts. These modifications primarily add ANSF facilities to the O&M contracts once
construction is completed or remove facilities from the contracts that are transferred to the Afghan
government.15 Appendixes III and IV list the task orders and modifications for the northern and southern O&M
contracts, respectively.


AFGHAN GOVERNMENT CONTINUES TO FACE CHALLENGES SUSTAINING ANSF
FACILITIES

Difficulties recruiting a sufficient number and quality of personnel, as well as deficient MOD and MOI
budgeting, procurement, and supply systems prevent the Afghan government from fully maintaining ANSF
facilities. This hampers efforts to transition ANA and ANP facilities to the Afghan government. NTM-A and
USACE are taking steps to address these challenges in an effort to enhance the government’s ability to sustain
its facilities after the 2014 transition.

Personnel Numbers
MOD and MOI have struggled to fill O&M authorized positions. As of June 1, 2012, ENG reported that MOD
had filled 1,055, about 41 percent, of the 2,567 total ANA O&M positions authorized. An additional 435
personnel were in the hiring process, which would raise the percentage of filled positions to about 58 percent.
Exelis and MOD have had problems identifying and retaining ANSF trainees due to fluctuations in daily
attendance rates and attrition.16 Officials indicated that this is largely due to site commanders detailing
trainees to other work assignments, which can partially be attributed to insufficient personnel numbers. These
are ultimately the personnel who are responsible for providing O&M as part of the garrison support unit (GSU)
facility engineer sections.17
In an effort to attract qualified employees, MOD raised compensation for civilian O&M personnel, and ENG has
encouraged additional efforts to enhance recruitment and retention. For example, ENG is working to boost
personnel numbers by recruiting Afghan contract personnel working on contracts to fill GSU positions at sites
where contracts are ending. However, salary disparities still exist between civilian GSU positions and positions



13 USACE’s Transatlantic Division oversees USACE-TAM, USACE-TAN, and USACE-TAS. The provinces covered by the O&M

contracts correspond with the USACE-TAN and USACE-TAS areas of responsibility.
14 In addition to performing regular preventive maintenance on facilities, Exelis and its subcontractor submit work orders

for work that is corrective in nature, such as repairs, modifications, and replacements, as well as those related services not
generally considered to be a recurring maintenance activity. The contracts authorize Exelis to self-approve emergency work
orders that do not exceed $5,000. USACE must approve the initiation of work orders that exceed this threshold.
15   Modifications also allocate additional funding to the task orders.
16   Exelis officials indicated that attrition rates have been low overall but are still a concern.
17 GSUs are responsible for providing installation and life support operation for their units, including O&M of facilities,
installation security, and fuel distribution.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                        Page 5
with private firms, such as contractors. Despite these actions, MOD continues to face difficulties recruiting
civilian personnel to fill O&M positions in the ANA’s GSUs. Without additional steps, MOD may not be able to
fill all authorized positions in the expanded facility engineer sections and risks not being able to provide the
necessary O&M on ANA facilities.
With respect to the ANP, ENG’s reports indicated that MOI had only filled 321, or approximately 31 percent, of
the 1,022 authorized O&M positions in the facility engineer section of ANP GSUs as of June 1, 2012, with only
two personnel in the process of being hired. In addition to filling currently authorized positions, ENG
recommended that MOI increase the number of positions, but the ministry did not approve an increase. ENG
officials indicated that they do not expect the ministry to add positions even though it has acknowledged that
ANP facility engineer sections need to grow to meet increased demand. As a result, MOI will likely have to
contract for O&M services as police facilities are transferred to the Afghan government.

Quality of Personnel
In addition to filling authorized maintenance positions, the ANSF has had difficulties recruiting and retaining
personnel with the level of competence needed to provide the full range of O&M services.18 ANSF and Afghans
employed by Exelis and its subcontractor are largely limited to performing basic O&M at ANSF sites, and Exelis’
training programs largely focus on the skills required to provide these basic services. As a result, with the
possible exception of sites near large hubs such as Kabul and provincial capitals, third-country national
contractor and subcontractor employees largely provide O&M of critical facilities, such as water supply, waste
water treatment, and power generation, while Afghan employees only provide such services under the direction
of the third-country nationals. The complexity of these critical facilities requires skilled, experienced personnel
who can operate and maintain them independently, which most Afghan personnel are currently unable to do.
For example, Exelis officials told us that an individual must be able to read O&M and technical manuals and
blueprints in order to operate power and waste water treatment plants. However, both ITAG and Exelis officials
stated that the literacy rate for ANSF trainees is low and remains an ongoing challenge to developing a fully
capable O&M workforce.
NTM-A worked with MOD to draft a policy aimed at increasing the number of qualified personnel hired to fill
maintenance positions. This policy would give top priority to Afghans employed by Exelis, its subcontractor,
and local construction company workers. Although MOD has not officially approved the policy, it has
implemented most of the identified processes.19 However, the ministry continues to face difficulties identifying
and recruiting qualified personnel with the ability to learn how to operate and maintain complex facilities, as
most are already employed by private firms. This is largely due to disparities between ANA pay for civilian
positions and private sector pay provided by contractors and other entities.
In lieu of qualified personnel, ENG was taking steps to implement interim measures that would ensure that
critical facilities, such as power generation and waste water treatment plants, receive the necessary O&M until
the ANSF is capable of providing these services with its own personnel. For example, the ITAG team at Camp
Hero in Kandahar was working with the site’s facility engineer to develop a local ANA-funded contract that



18 Prior reports have commented on the ANA’s lack of personnel with technical skills and difficulties recruiting such
personnel. For example, in December 2011, the Department of Defense Office of Inspector General reported on the ANA’s
inability to recruit and retain qualified generator operators and maintenance personnel (see DODIG-2012-028, Assessment
of U.S. Government and Coalition Efforts to Develop the Logistics Sustainment Capability of the Afghan National Army,
December 9, 1011).
19 In addition to defining ANA hiring priorities, the MOD policy lists hiring requirements, such as background checks and

service agreements, and qualifications for the three broad position levels.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                    Page 6
would provide O&M on these critical facilities after the site transitions to the ANA. At the ministry level, ENG
was working with MOD and MOI to develop an Afghan-administered and funded national O&M contract that
would focus on the operation, maintenance, and repair of the more complex facilities. However, it is unclear
where the Afghan government will obtain the funds to contract for these services because the U.S. and
coalition nations currently provide almost all of the ANSF’s funding. Without such a contract or qualified
personnel capable of providing these services, the Afghan government may not have the ability to
independently operate and maintain critical facilities at ANA and ANP sites over the long term. Lack of O&M on
critical facilities can have a direct impact on maintenance of other facilities at sites and may contribute to their
deterioration.

Budgeting, Procurement, and Supply Systems
With ENG support, MOD has taken steps to provide funding and supplies for facility engineers to perform O&M
on the limited number of buildings and structures under their control; however, there were challenges causing
the ANA GSU facility engineer sections to receive inadequate support. According to ENG, MOD addressed prior
shortfalls in the ANA O&M budget, and sufficient funds are now available for O&M. However, MOD continued
to face challenges executing this budget due to a slow procurement process that is unable to meet the
demand for services and supplies in a timely manner.
ENG officials noted that this issue affects all ANA logistics, not just O&M. ENG officials stated that they have
brought the procurement issue to the attention of senior U.S. officials—including the Commanding General of
U.S. Forces-Afghanistan and the International Security Assistance Force—which has led to more engagement
between higher-level MOD and NTM-A leadership on the issue. To obtain supplies, MOD’s Construction and
Property Management Department (CPMD),20 under ENG mentoring, has encouraged the use of cash advances
to locally purchase parts and supplies, although there has been resistance within MOD about using such an
approach. This step may help overcome previously reported difficulties ANA units face obtaining parts and
supplies through MOD’s centralized supply request process.
With respect to MOI, ENG officials reported that the ministry made its first allocation of funds specifically for
O&M in March 2012. In addition, ENG initiated efforts to purchase facility maintenance tools and equipment
that, if approved, would add a stock of equipment to MOI’s supply system and procure additional equipment
that would be available to regional and provincial ANP headquarters facility engineers.


NTM-A Has Multiple Efforts Underway to Develop the Afghan Government’s Capacity
to Maintain Facilities and Begin Transitioning Facilities to the ANSF
ENG was implementing several efforts to achieve the main objectives of the ITAG Campaign Plan, which are to
increase ANSF O&M capabilities and to work systemic problems of manning, equipping, training, and budget in
order to transition responsibility of facilities to the Afghan government.

ITAG Training Teams
As of November 2011, ITAG embedded training teams were assigned to 32 sites, primarily ANA sites, across
Afghanistan. The teams’ responsibilities are to train and mentor ANSF facility engineers and synchronize O&M
efforts at ANSF sites by serving as a liaison between the ANSF facility engineers, USACE, and Exelis. According


20 CPMD is a component of MOD that is responsible for the conduct of routine facility maintenance and management of all

ANA facilities. CPMD controls O&M personnel assignments, training, qualifications, budget, overall programming, and
prioritization of national facilities maintenance and repairs.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                               Page 7
to ENG officials, ITAG numbers will decrease to just 63 personnel by the end of September 2012, due to the
overall drawdown of U.S. military personnel. ENG officials indicated that this decrease will have a large impact
on ITAG’s ability to accomplish its mission. For example, in preparation for the decrease, ENG developed a
“grip and touch” approach to assigning teams to ANSF sites. Under this approach, key locations, such as the
Kabul Military Training Center, Afghan Defense University, and Corps level ANA sites,21 will likely be designated
as “grip” sites with a constant ITAG presence. Other locations, such as brigades and outlying kandaks,22 will
be “touch” sites visited by mobile ITAG teams. To further ensure that training and mentorship efforts continue,
NTM-A has sought additional resources from other troop-contributing coalition nations.

O&M Capability Assessments
A focus of the ITAG strategy is to remove buildings from the O&M contracts as soon as ANSF personnel have
developed sufficient capacity to maintain them. To accomplish this, ITAG has completed O&M capability
assessments of 27 sites, including 5 ANP sites. These assessments include evaluations of GSU leadership
and management, people and organization, tools, funding and budget, and force protection. ITAG reevaluates
sites on a monthly and quarterly basis, and updates the assessments as conditions change.

Transition Plans and Facility Transitions
Based on its site assessments, ITAG teams developed transition plans for 23 ANA sites and 1 ANP site. These
plans call for sites to transition to the Afghan government in four phases with about 25 percent of the sites
being transferred during each stage. Building and structures requiring limited maintenance will transition first,
followed by more maintenance-intensive buildings in subsequent phases. Although the ITAG Campaign Plan
calls for 18-month transition timelines, the plan allows each ITAG team to adjust the timeline based on ANSF
personnel’s ability to maintain the facilities at their assigned sites.
As of August 1, 2012, building transitions have occurred at 23 ANA and 2 ANP sites.23 Although buildings have
transitioned at these sites and no longer receive O&M under the contracts, contract funding has not changed.
According to USACE and Exelis personnel, this is because the contracts call for entire facilities to transition to
the Afghan government rather than individual buildings. USACE officials also stated that most of the buildings
that have transitioned to the ANSF are those that are either easy to maintain or require minimal work, such as
barracks and latrines, and therefore do not have high O&M costs.
In February 2012, USACE started working with Exelis to develop a mechanism to reclassify facilities as
buildings transition, thus reducing O&M costs incurred under the contracts. In August 2012, the PCO reported
that USACE-TAM had taken the first step in this process by modifying both base contracts to identify the
boundaries of the most critical facilities, such as waste water treatment and power generation plants, that will
remain on the base contracts. The next step is to determine the reclassification of facilities where partial
transitions have occurred. USACE-TAM expects to complete this by the end of November 2012, with
corresponding modifications to the relevant task orders executed no later than January 15, 2013. Until this
mechanism is fully implemented, USACE will continue to pay O&M costs for buildings that are no longer
covered under the contracts. Further, although the buildings that have transitioned have low O&M costs, the




21 Combat forces form the basic operational arm of the ANA and are divided into 6 Corps and 1 division, each responsible

for a specific part of Afghanistan. Each Corps or division is made up of 1 to 4 brigades.
22 A kandak consists of approximately 800 soldiers and is the Afghan equivalent to a U.S. Army battalion. Each brigade
typically consists of 6 kandaks.
23   As of June 5, 2012, 480 ANSF facilities were covered under the contracts.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                 Page 8
proportion of contract costs expended on these and other buildings that have not been formally removed from
the contracts will increase as more buildings transition to the Afghan government.

Identifying Facilities for Complete Removal from the Contracts
ENG is also working to identify facilities, largely ANP, to remove from the O&M contracts. On May 1, 2012, 44
polices facilities were removed from the northern contract, and the directorate is identifying additional facilities
for removal. ENG wants to remove facilities at which it has been difficult for Exelis to provide O&M and for both
USACE and Exelis to provide oversight. ENG also wants to remove ANP facilities in an effort to force MOI to
develop its capacity to maintain these facilities. ENG officials told us that MOI continues to lag behind MOD in
overall O&M capacity, and they are taking steps to encourage the ministry to take responsibility for ANP sites.
However, if the MOI is unable to develop the necessary O&M capacity, the 44 police facilities that have been
removed from the contracts, and future facilities that may be removed, will likely fall into disrepair.

Capacity Building Efforts at MOD and MOI
In addition to working with ANA facility engineers and O&M personnel at the local level, ENG is working with the
MOD and MOI to develop their capacities to manage O&M at the various ANA and ANP facilities. ENG was
focusing its efforts on personnel, compensation, training, supplies, and budget. For example, ENG has worked
with MOD to increase the size of the facility engineer section of each ANA GSU from 24 to 65 or 80 personnel,
depending on the size of the garrison the unit is serving. These units consist of administrative, operation,
engineering, maintenance, and services teams, as well as a remote kandak services team to provide support
to facilities that are not co-located with the garrison. About half of the personnel in the facility engineer section
would be assigned to the maintenance and remote kandak services teams. MOD is currently taking steps to
recruit personnel to fill the units. ENG has also worked with MOI to facilitate increases in the size of the ANP’s
GSUs’ facility engineer sections from the authorized 18 or 23 positions. However, MOI has not approved the
recommended increase even though ministry officials have acknowledged that additional positions are needed
to meet the increased demand. In terms of salaries, MOD, with ENG support, has reclassified civilian O&M
positions, thus raising personnel salaries.


Exelis Was Providing Training Focused Largely on Basic O&M Skills to Over 600
ANSF Personnel as of June 2012
Exelis initiated two O&M programs to train ANSF personnel at selected sites in northern and southern
Afghanistan. Although Exelis’ O&M training programs largely focused on basic O&M trade skills, such as
carpentry, electrical, and plumbing, the contractor has implemented training sessions on power generation and
sewage treatment plant O&M—two more technical skills—in accordance with the contracts. The contracts also
require Exelis to train Afghan personnel to use the Computerized Maintenance Management System.24 ENG
plans to transfer this system to the Afghan government. Among other things, the Computerized Maintenance
Management System will provide ANSF facility engineers with a method for maintaining O&M records and
justifying expenditures.




24 The Computerized Maintenance Management System is a web-based application that allows USACE to monitor Exelis’

O&M workload and performance and Exelis to input, submit, and manage work requests. The system can also track ANSF
facility assets. AMEC, formerly MACTEC, developed and currently maintains the Computerized Maintenance Management
System under an Air Force Center for Engineering and the Environment contract funded by NTM-A/Combined Security
Transition Command-Afghanistan.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                            Page 9
As of June 15, 2012, Exelis was providing training at 21 ANSF locations—13 ANA and 2 ANP locations in the
north25 and 6 ANA locations in the south (see table 2).26 Sixty-six students had completed training and 602
were enrolled in the training programs as of June 15, 2012.27 Exelis had invoiced for approximately $9.2
million in training costs as of May 27, 2012: $4.7 million on the northern contract and $4.5 million on the
southern contract.

     Table 2 - O&M Training Locations by Contract as of June 15, 2012
                             Northern Training Sites                                    Southern Training Sites

                                 Location                                 Type               Location                Type

     Camp Commando, Kabul                                               ANA      Camp Hero, Kandahar                ANA

     South Kabul International Airport, Kabul                           ANA      Kandahar Air Wing, Kandahar        ANA

     Kabul Logistics Acquisition Center, Kabul                          ANA      Camp Shorabak, Helmand             ANA

     Central Workshop, Kabul                                            ANA      Camp Eagle, Zabul                  ANA

     North Kabul International Airport, Kabul                           ANA      Qala-e Naw, Badghis                ANA

     Pol-e-Charki Garrison, Kabul                                       ANA      Camp Zafar, Herat                  ANA

     National Military Hospital, Kabul                                  ANA

     MOI, Kabul*                                                        ANP

     303rd Regional Headquarters, Balkh                                 ANP

     Camp Shaheen, Balkh                                                ANA

     Camp Pamir, Kunduz                                                 ANA

     Gamberi Garrison, Nangarhar                                        ANA

     Jalalabad Garrison, Nangarhar                                      ANA

     Camp Thunder, Paktya                                               ANA




25 O&M training in the north included trainees from 23 different ANSF sites. Exelis planned to begin training at the Afghan

National Security University on August 1, 2012.
26 Exelis officials indicated that O&M training at Shindand ANA Air Base in Herat province began in early March 2012.
However, due to hiring issues, training was suspended less than a week later, and the enrolled students were released
from training. As of June 2012, MOD and local ANA leadership had not resolved the problem. As of early July 2012, Exelis
had not initiated training at police sites in southern Afghanistan, but officials told us they were in the process of developing
training programs for ANP O&M personnel. According to a senior ITAG official in the south, Exelis planned to start training
at the Joint Regional Afghanistan National Security Forces Center in Kandahar province in early 2012, but ITAG requested
that the contractor delay this training due to a lack of trainees.
27 All 66 graduates completed training under the northern contract. With the initiation of training at the Afghanistan

National Security University in August 2012, Exelis projected that at least 29 additional personnel would be enrolled in
training.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                      Page 10
       Table 2 - O&M Training Locations by Contract as of June 15, 2012
                              Northern Training Sites                                  Southern Training Sites

                                  Location                               Type              Location              Type

       Camp Parsa, Khost                                                ANA
       Source: Exelis Systems Corporation.
       * Training at MOI concluded on July 1, 2012, with the transition of the site to the Afghan government.

In addition to training conducted at ANSF sites, Exelis-North, in coordination with ENG and USACE, also
provided two phases of apprentice-level O&M training at the Facility Engineer Vocational and Technical Training
School located at CPMD in Kabul.28 Training included classroom and practical exercises in such O&M crafts as
electrical, plumbing, carpentry, and masonry. Prior to and during CPMD training, ENG personnel provide
students with literacy and basic math skills training to facilitate learning in their O&M courses. Of the 240 total
training slots available for the two phases, approximately 150 trainees completed the courses for a graduation
rate of about 63 percent.29 After receiving training at CPMD, trainees return to their assigned sites.


EXELIS GENERALLY INVOICED AND PROVIDED SERVICES WITHIN THE
CONTRACTS’ TERMS, BUT EXTERNAL FACTORS AFFECTED EXECUTION, AND
FUNDING FOR THE NORTHERN CONTRACT MAY BE INSUFFICIENT

Exelis largely implemented the O&M contracts in accordance with contract costs and required services. From
December 2010 through May 2012, Exelis submitted invoices for about $150.8 million and $85 million on the
northern and southern contracts, respectively, for a total of $235.8 million to USACE-TAM for payment.30
These invoices covered costs incurred during the mobilization phase, base year, and about 10 months of the
first option year. After reviewing all invoice packages maintained by USACE-TAM from the notice to proceed
dates to May 27, 2012,31 we determined that the $235.8 million in total costs agreed with the line item pricing
in the contracts.




28 Exelis-North provided the first phase of this training from January to July 2011 and the second phase under the northern

O&M contract from October 2011 to March 2012. Exelis-North initiated CPMD phase III on June 6, 2012. This phase will
conclude in October 2012. As of July 12, 2012, 58 trainees were enrolled in the course. Exelis officials expect CPMD
phase IV to begin in January 2013. Training in these two phases will include literacy and numeracy, safety, generator
operation and maintenance, and four basic trades—carpentry, electrical, plumbing, and heating, ventilation, and air
conditioning. The contractor intends to provide phases III and IV at no cost to the U.S. government after making a $1
million commitment towards ANSF O&M capacity development.
29 CPMD phases I and II each had 120 training slots available. Seventy trainees completed phase I while 80 trainees

completed phase II.
30 The total contract capacity for the base year and option year one of the northern and southern O&M contracts was $150

million and $125 million, respectively.
31   Exelis submitted the first invoices for the contracts on December 8, 2010.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                 Page 11
Exelis Generally Performed O&M in Accordance with the Contracts’ Terms, but Had
Difficulty Mobilizing Initially
Based on our site visits, reviews of USACE and NTM-A documents, and discussions with agency and contractor
officials, we determined that Exelis was generally performing O&M in accordance with the contracts’
requirements, although some issues existed. We conducted site visits to 20 facilities at 11 ANSF sites covered
under the O&M contracts (see appendix V for more information on these facilities). Based on our engineering
assessments, we concluded that Exelis was meeting its contractual requirements at these sites. For example,
we observed sinks and toilets in good repair at Police District 3 in Kabul and the ANA’s Camp Hero in Kandahar
(see figures 2 and 3, respectively).



Figure 2 - Eastern Style Toilet in Good Repair           Figure 3 - Operational Sink in Latrine at Camp
in Latrine at Police District 3, Kabul                   Hero, Kandahar




Source: SIGAR, January 16, 2012.                         Source: SIGAR, December 21, 2011.



In addition, we noted that the emergency room in the hospital at Camp Hero was clean and well maintained
(see figure 4). Further, we saw operational light and ceiling fans at a barracks on the ANA’s Camp Shaheen
located in Mazar-e Sharif, Balkh province (see figure 5).




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                    Page 12
Figure 4 - Hospital Emergency Room Clean and                       Figure 5 - Lights and Fans Operational in Barracks
Well Maintained at Camp Hero, Kandahar                             at Camp Shaheen in Mazar-e Sharif, Balkh




Source: SIGAR, December 21, 2011.                                  Source: SIGAR, January 3, 2012.

Although Exelis appeared to be performing within the terms of the contracts, USACE officials told us that the
phase-in period of the contracts had to be extended because Exelis had difficulty mobilizing.32 Agency officials
stated that Exelis did not have the required skills to successfully implement the contracts, and they supported
the contractor’s decision to subcontract with Contrack International Incorporated, the prime contractor on the
previous ANA O&M contracts, to carry out the entire contract.
In addition, USACE quality assurance reports covering the period from January to October 2011 documented
some incidents of poor performance at several ANSF facilities. For example, a COR reported in April 2011 that
the contractor was slow to staff and start maintaining sites in Delaram and Terin Kot. Another report
submitted by an AQAR in June 2011 commented that the contractor had replaced door locks with poor quality
locks. Despite these concerns, both ENG and USACE officials reported being satisfied with Exelis and its
subcontractor’s overall performance on the contracts thus far.


External Factors Have Affected O&M Contract Implementation
Although we determined that Exelis was generally providing O&M services within the terms of the two
contracts, we noted several external factors that have affected implementation of the contracts and may result
in increased contract costs.

Threats and Harassment of O&M Personnel
ANSF personnel have harassed Exelis and its subcontractor’s personnel, many of whom are Afghans, which
has affected O&M services at sites. From December 2010 to January 2012, Exelis submitted 61 serious



32 The phase-in period is the time allowed for the contractor to assume full responsibility for all areas of operation in

accordance with the terms and conditions of the contracts. This includes establishing project management offices;
recruiting, hiring, and training necessary personnel; and attending post-contract award meetings as required.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                      Page 13
incident reports to USACE documenting instances of ANA and ANP personnel threatening, detaining, or
physically assaulting its O&M personnel; denying them access to facilities; or a combination of these actions.
For example, a report from May 2011 documented an incident during which ANA soldiers at a facility in the
north beat a waste water truck driver. In another incident reported in August 2011, the armed Afghan police at
a site in the south ordered subcontractor personnel to restart the site’s generators, which they had largely shut
down to conserve fuel and prevent damage to the equipment. In 25 instances, these incidents had a negative
impact on O&M activities at those facilities.
ITAG, USACE, and Exelis have worked with local ANSF commanders to resolve these issues before elevating
them to higher levels. Officials stated that this has generally been sufficient to ensure the continuation of O&M
work. For example, ITAG, USACE, contractor, and police commanders met to address the August 2011
incident. The ITAG representative indicated that instances of ANP intimidation at the site have occurred less
frequently since that meeting.

Poor Construction Quality and Flaws
We observed poor construction quality and flaws at some of the facilities we visited that could make O&M
more complicated and costly.
        For example, at the ANA 8th Commando Camp in Tarin Kot, Uruzgan province, we observed that the
         original wires in the electric panel in the maintenance building had overloaded, causing the wires to
         melt. As a result, O&M personnel disconnected half of the building’s heaters to prevent further
         problems, such as possible electrocution and fires, and repaired the wires. However, the repairs were
         likely a temporary solution and may not prevent future overloading (see figures 6 and 7).
        In addition, at the ANP’s Joint Regional Afghanistan Security Forces Compound, we observed wear on

Figure 6 - Repaired Wiring in                   Figure 7 - Disconnected Heating Units in 8th Commando
Electrical Panel in 8th Commando                Camp Maintenance Building
Camp Maintenance Building




Source: SIGAR, December 11, 2011.               Source: SIGAR, December 11, 2011.
Note – O&M personnel repaired melted
wiring by splicing in new wiring, which they
then covered with black electrical tape.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                       Page 14
         original components of the water treatment
                                                                    Figure 8 - Corroded Steel Pipe at the Joint
         system that suggest that the system will fail if
         not repaired. Specifically, we noted that the
                                                                    Regional Afghanistan Security Forces
         construction contractor built the chlorine
                                                                    Compound Water Treatment System
         addition system, which pumps liquid chlorine
         into the water system, with galvanized steel
         pipe. This material is not compatible with
         chlorine. The pipe is already showing signs of
         corroding from the inside-out (see figure 8). If
         not replaced with pipe of a chlorine-compatible
         material, the pipe may fail, resulting in the
         release of hazardous liquid chlorine into the
         room. In December 2011, an ITAG official told
         us that ENG was coordinating with NTM-A to
         award a $24 million contract to repair the
         sewage system, water tank, and other identified
         construction flaws at the site.33
        Further, we noted that the construction
         contractors had installed plain pane glass
         windows in guard towers at the Joint Regional
         Afghanistan Security Forces Compound. The                  Source: SIGAR, December 12, 2011.
         glass will shatter if hit, potentially injuring police
         in the towers.
In some cases, construction repairs are covered under the construction contract warranty, thus requiring the
initial contractor to complete the repairs. ENG and USACE officials told us that USACE considers whether to
make warranty repairs on a case-by-case basis. The agency attempts to bring the original contractor back on
site to complete repairs; however, this is not always feasible primarily due to contractor demobilization or costs
involved. In such instances, USACE determines whether it is more cost effective for Exelis to complete the
warranty repairs under the O&M contracts. Each contract allocates $2.5 million of the total contract cost to a
contract line item for work orders that do not fall under normal operation and preventive maintenance. At the
PCO’s discretion, Exelis uses these funds to complete identified warranty repairs for an agreed cost.
As of May 27, 2012, Exelis had submitted invoices for about $786,000 in work orders not related to normal
operation and preventive maintenance. 34 According to the PCO, the cost of warranty repairs has been low
relative to the total funding amount allocated. However, these costs could increase with further warranty
repairs on facilities currently covered under the contracts or on facilities added to the contracts later.




33The contract would also require repairs to the power plant and the construction of a barracks that one of the initial
contractors did not build. We did not determine the extent to which the repairs under the proposed $24 million contract
were covered under the construction warranty. However, in 2010 USACE identified electrical and generator deficiencies at
the site, and an ITAG official noted ongoing problems with the generators during our site visit in December 2011.
34 The invoices did not identify what portion of work order costs were for warranty repairs versus non-warranty repairs. As a

result, we could not independently verify how much has been spent specifically on warranty-related repairs.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                  Page 15
Difficulties Obtaining Required Parts and Equipment
Exelis officials noted difficulties obtaining parts and equipment needed to provide O&M services in a timely
manner, as many of these items are not locally available. For example, officials stated that most generators
installed at ANSF facilities were built by foreign companies. Exelis must order replacement parts from abroad
because they are not available in Afghanistan. Due to fluctuations in transit times, Exelis has attempted to
order parts for some routine repairs in advance and to stockpile other parts. However, this continues to be a
challenge. USACE quality assurance reports also noted cases where Exelis and its subcontractor experienced
delays in obtaining necessary parts at some sites, which affected O&M at those locations.

Irregular Fuel Deliveries
Irregular fuel deliveries have caused disruptions in power at some sites, thus affecting Exelis’ ability to provide
O&M. Exelis and subcontractor personnel told us that O&M personnel do not run generators constantly at
some sites, due to inconsistent fuel deliveries and shortages. For example, Exelis officials told us that
contractor personnel were forced to shut down the power plant at the Darulaman ANA base because fuel
supplies dropped below a critical level. In addition, an ITAG official noted that lack of consistent fuel deliveries
to the Joint Regional Afghanistan Security Forces Compound has been a problem. At one point, O&M
personnel shut down generators to conserve fuel, which resulted in a confrontation with Afghan police at the
site. Lack of power impacts O&M and other functions at these locations. According to the contracts, Exelis is
not responsible for providing fuel to run generators and other equipment. Rather, MOD and MOI order fuel
under a U.S.-funded national contract that provides fuel to ANSF facilities across the country. 35


NTM-A Projects That the Northern Contract Will Exhaust Its Funding Before 2015
ENG analyses indicated that the northern O&M contract will run out of funding in 2014, prior to the expected
contract completion date in 2015. We primarily attribute this funding shortage to ENG and USACE’s lack of
complete information on the number of ANSF facilities projected to be covered under the contract and the slow
rate of facility transition to the Afghan government. Although Exelis is providing O&M services within current
cost levels, ENG anticipated that USACE-TAM would exercise options 3 and 4 sooner than indicated in the base
contracts. As a result, ENG projected that funding for the northern O&M contract will largely be exhausted on
March 26, 2014, with only about $4.6 million remaining to fund the contract.36 This would be 16 months prior
to the projected contract completion date of July 26, 2015, indicated in the base contract. In contrast, ENG




35 The MOD and MOI national fuel contract is a U.S. government-funded blanket purchase agreement valued at $20 million
funded with a period of performance from January 22, 2010, to January 21, 2015. Under the agreement, the contractor is
to provide sufficient fuel for the ANA and ANP to maintain daily training operation for use in generator power, cooking,
heating, vehicle, equipment refueling, and other items for logistics operation. The ministries use the agreement, which is
funded by the Combined Security Transition Command-Afghanistan, to obtain fuel for specified locations based on the
ANSF’s operational needs. We are currently conducting an audit to assess U.S. government efforts to develop the ANA’s
capability to acquire, manage, store, and distribute petroleum, oil, and lubricants (POL), and train the personnel needed to
manage and oversee the distribution of POL. For the purposes of the audit, POL includes diesel fuel, gasoline, aviation fuel,
and other fuel products such as firewood, coal, and propane. We issued an interim report on September 10, 2012 (see
SIGAR-Audit 12-14, Interim Report on Afghan National Army Petroleum, Oil, and Lubricants). The report indicated that the
Combined Security Transition Command-Afghanistan does not have a valid method for estimating fuel needs on which to
base the funding requests or complete records on ANA fuel purchased, delivered, and consumed.
36ENG projects that it will cost USACE approximately $11 million each month to fund the northern contract starting July 27,
2013. Thus, the remaining $4.6 million in funding left after March 26, 2014, would not be enough to cover an additional
month of contract services.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                  Page 16
has projected that funding for the southern contract will be sufficient through contract completion in July 2015,
with approximately $55 million in contract capacity remaining.
Based on our review of USACE acquisition planning documents and meetings with ENG and USACE, the
projected funding shortfall on the northern O&M contract largely resulted from a lack of complete planning
information on the number of facilities that would be covered under the O&M contracts and the slow facility
transition rate. USACE’s acquisition strategies acknowledge that forecasts of when facilities will require O&M
support have not been available historically, and changing requirements make it difficult to plan for facility
additions and deletions to the contracts. In addition, ENG and USACE officials stated that the high rate of
ANSF facility additions to the contract, in conjunction with the slow rate of facilities being transitioned to the
Afghan government, have contributed to the expected funding shortfall.
In an effort to ensure that sufficient funding is available through the transition at the end of 2014, the PCO
informed us that NTM-A and USACE began the acquisition process to re-compete the northern contract in April
2012.37 USACE-TAM expects to award the contract in mid-September 2013, with full contractor performance
beginning on or about January 1, 2014. While the performance work statement was still being developed, ENG
and USACE officials had previously indicated that such a contract may only cover critical facilities, such as
power plants, waste water treatment plants, and hospitals. In addition, ENG is pursuing an aggressive
schedule to transition ANSF facilities to the Afghan government. The directorate also planned to conduct a
lessons-learned review in August 2012 to discuss a process for transitioning facilities to the Afghan
government. However, the Afghan government’s continued lack of sufficient capacity to provide O&M in lieu of
U.S. government support may impede these efforts.
Both the ITAG Campaign Plan and the O&M contracts call for funding O&M at ANSF facilities through transition
to the Afghan government at the end of 2014. Without sufficient funding for facilities covered under the
northern O&M contract, there is a risk that these facilities will not receive the required O&M services,
particularly those in locations where the ANSF may not have developed the capacity to maintain these
facilities. Lack of proper maintenance could result in the deterioration of the facilities and a waste of U.S.
funds spent on construction and O&M.


QUALITY OF CONTRACT OVERSIGHT VARIED

Although USACE has developed detailed and standardized policies for overseeing construction contracts, the
agency did not have similar policies specific to service contracts, such as the O&M contracts. USACE officials
told us they follow requirements in the Federal Acquisition Regulation to oversee the O&M contracts; however,
the quality assurance requirements in the regulation are broad. In addition, officials stated that the contracts
include similar quality assurance surveillance plans that describe the procedures for overseeing the contracts.
Instead of adhering to these plans, the PCO, USACE-TAN, and USACE-TAS implemented ad hoc oversight and
reporting procedures for overseeing the O&M contracts. For instance, the PCO instituted a requirement for the
CORs to submit monthly reports describing the status of contract implementation, contractor performance, and
any concerns regarding contract implementation. In addition, USACE-TAN and USACE-TAS required CORs to
conduct regular visits to their assigned sites as security permits.
However, we found that the level of oversight and quality of reporting varied by COR. Several CORs told us that
they are able to conduct site visits on a regular basis to at least some of their assigned sites, while others


37   The Combined Security Transition Command-Afghanistan was also involved in the re-compete process.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                          Page 17
stated that they rarely visited sites. USACE officials identified security concerns and limited security assets as
primary reasons for not being able to conduct visits. For example, USACE-TAN and USACE-TAS largely restricted
COR security movements in the fall of 2011 due to security incidents. USACE officials also stated that the
drawdown of military personnel will have an additional impact on their ability to conduct visits.
Further, our analysis of COR reports submitted from January to September 2011 indicated that although the
reports were generally complete, many only provided the minimum information required and lacked supporting
documentation to justify contractor performance ratings. This was true for reports providing satisfactory
performance ratings and also those noting unsatisfactory performance. Although the PCO communicates
informally with the CORs, she told us that she primarily relies on COR reports to gain field-level insight into
contractor performance and identify instances of poor performance for the contractor to address. In addition,
because USACE-TAM does not require Exelis to submit supporting documentation for costs invoiced for O&M
training, vehicles, and warehousing, the reports serve as the main source of information for the PCO and CORs
to determine whether the contractor has provided these goods and services within contract terms.
In addition to CORs, USACE-TAN and USACE-TAS rely on AQARs to conduct quality assurance visits.38 USACE
requires AQARs to produce reports on each site that they visit. CORs rely on these reports to develop their
required monthly reports for the PCO. We conducted an analysis of a random sample of AQAR reports
submitted from April to October 2011.39 Although we found that AQARs had conducted numerous site visits
during this 7-month period, the quality of the reports in our sample varied by AQAR. For example, many reports
were incomplete, and about half of the reports did not include photographs to document physical evidence of
the quality of O&M services provided by the contractor. Further, the contents of the reports varied both across
and within the two USACE districts. As a result, AQARs were not consistently collecting information and
reporting on the same performance indicators.
The Federal Acquisition Regulation requires contracting entities to conduct contract quality assurance as
necessary to determine that services conform to contract requirements.40 Further, government officials must
document quality assurance inspections in accordance with agency procedures.41 However, this regulation
does not detail how agencies are to conduct quality assurance. In addition, the Government Accountability
Office’s Framework for Assessing the Acquisition Function at Federal Agencies defines agency policies and
processes as a cornerstone to an efficient, effective, and accountable acquisition process.42 Such policies and
procedures are necessary to monitor and provide oversight to achieve desired contract outcomes. By not
implementing standardized procedures for overseeing Exelis’ performance on the O&M contracts, USACE may
not have reasonable assurance that the contractor is providing services in accordance with contract
requirements.




38 We previously reported on UASCE’s reliance on AQARs to conduct quality assurance visits to construction sites. UASCE
employs local Afghans as AQARs to expand its quality assurance abilities. AQARs conduct daily site visits to specified sites,
including sites CORs may be unable to reach.
39 The size of our sample was not large enough for us to make projections to the entire population of AQAR reports

submitted from April to October 2010. As a result, we only use the analysis to demonstrate the extent to which USACE
oversight varied both across and within the northern and southern contracts.
40   FAR 46.401(a).
41   FAR 46.401(f).
42   GAO-05-218G, Framework for Assessing the Acquisition Function at Federal Agencies, September 2005.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                   Page 18
Exelis Has Not Fully Implemented Quality Control Efforts in the South
In accordance with the two O&M contracts, Exelis developed quality management plans that describe the
contractor’s policies and procedures for monitoring the quality control of work performed at ANSF facilities
covered under the contracts. However, we found that Exelis did not fully implement its quality control effort in
the south.
As part of its quality management program, Exelis officials in the north created a week-long quality control
training program to prepare Afghan staff to conduct quality control visits.43 This training consists of conducting
site assessments, mapping sites, and developing reports. Quality control inspectors also undergo an English
comprehension test. During the base year and first half of option year 1, Exelis quality control inspectors’
efforts were largely limited to site visits to facilities in and around Kabul, although sites in Kabul accounted for
only 20 percent of facilities covered under the northern contract at the end of 2011. From March to December
2011, the inspectors conducted 78 visits to sites, all of which were in the vicinity of the capital. However,
since September 2011, Exelis has expanded its quality control efforts outside of Kabul. Exelis officials
reported having 33 quality control personnel, including 28 Afghan inspectors, assigned to facilities throughout
the provinces covered under the northern contract as of June 2012. An additional 80 safety personnel
complement oversight efforts by conducting joint site visits with quality control inspectors.
In the south, Exelis’ quality control efforts were limited. In September 2011, Exelis officials in the south told us
that the contractor’s quality control office consisted of only one U.S. supervisor and no quality control
inspectors. During our site visits to facilities in the south in December 2011, USACE, ITAG, and subcontractor
personnel told us that Exelis personnel had conducted few, if any, quality control visits to their sites. Exelis
officials told us that they were still in the process of implementing their quality control program, expanding
efforts beyond Kandahar, and recruiting Afghan quality control inspectors. By December, Exelis had hired five
Afghan inspectors. As of June 15, 2012, the contractor had hired a lead Afghan quality control supervisor and
three inspectors, and expanded to locations in Herat and Helmand provinces. Officials also indicated that the
primary subcontractor, Contrack International Incorporated, had established a quality control department.
The O&M contracts state that Exelis is responsible for the quality of products and services provided under the
terms of the contracts, including those provided by subcontractors. Specifically, the contracts require Exelis to
develop and implement a quality control inspection program. Further, Exelis’ quality management plan also
implies that quality control personnel are to be located at hub locations in Zabul and Farah provinces. Thus,
although Exelis has implemented such a program under the northern contract, the quality control program for
the southern contracts has not been fully implemented. Without proper Exelis oversight, USACE and the
contractor may not be able to determine whether the O&M services are meeting the terms of the contract.


CONCLUSIONS

Despite ongoing capacity development, the Afghan government continues to face challenges that will likely
prohibit it from being capable of fully sustaining ANSF facilities after the transition in 2014 and the expected
significant decrease in U.S. and coalition support. MOD has taken some steps to develop the necessary
capacity; however, MOI has not recruited the necessary personnel and implemented the systems required to
develop a self-sustaining police force. Instead, the ministry continues to rely on U.S. and coalition funding and



43 Exelis-North officials told us that they are also training Afghan quality control inspectors employed under the southern

O&M contract.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                    Page 19
support, decreasing the likelihood that the ministry will be able to sustain ANP facilities in the long run. As a
result, U.S. funds invested in the construction and maintenance of ANSF facilities, particularly police facilities,
are at risk of being wasted. Further, although there are ongoing efforts to establish a national O&M contract to
cover both army and police facilities, these contracts will likely be at an additional cost to U.S. and other
coalition nations, which currently provide the bulk of the ANSF’s funding.
NTM-A ENG and USACE have taken some steps to increase the Afghan government’s capacity to sustain ANSF
facilities, and these efforts have made it possible to start transitioning partial facilities to the Afghan
government. However, USACE continues to pay the full O&M costs for these because the agency has not yet
implemented a process for reclassifying facilities as buildings transition. Without such a process, USACE will
continue to expend funds on buildings that are no longer covered under the contract, and these costs will likely
increase as more buildings are removed from the contracts without a corresponding decrease in contract
costs.
With respect to USACE’s $800 million contracts to provide O&M for ANSF facilities until the Afghan government
develops the capacity to sustain these facilities, Exelis invoiced and generally appeared to provide O&M in
accordance with the terms of the contracts. However, USACE still may not have reasonable assurance that
Exelis is providing goods and services within the terms of the O&M contracts due to variations in contract
oversight. These variations resulted from USACE not implementing standardized procedures for overseeing
service contracts and Exelis’ incomplete implementation of quality control efforts for the southern contract.
Because the O&M contracts are projected to be active through at least 2014 and USACE expects to award a
new contract for facilities in northern Afghanistan, it is important that the agency require its personnel to
implement quality assurance procedures consistently across and within the two contracts, and require that its
contractor fully implement quality control efforts.


RECOMMENDATIONS

To ensure that U.S. government funds are not being expended on buildings that have transitioned off the O&M
contracts and to the Afghan government, we recommend that the Commander of the U.S. Army Corps of
Engineers Middle East District direct the Primary Contracting Officer, in consultation with Exelis as appropriate,
to

    1. complete and implement plans and procedures currently under development for removing partial
       facilities from the contracts and reclassifying these facilities, including steps for coordinating these
       transitions with NTM-A ENG, and, if necessary, modify the contracts to formalize this reclassification
       process.
To enhance oversight of the O&M contracts, we recommend that the Commander of the U.S. Army Corps of
Engineers Middle East District direct the Primary Contracting Officer to

    2. implement standardized procedures for overseeing the two contracts, which include, but are not
       limited to, provisions for Contracting Officer’s Representatives and Afghan Quality Assurance
       Representatives to conduct regular site visits, as security permits, and report on contractor
       performance.
To ensure that Exelis is providing goods and services in accordance with the terms of the O&M contracts, we
recommend that the Commander of the U.S. Army Corps of Engineers Middle East District direct the Primary
Contracting Officer to




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                         Page 20
    3. direct Exelis to fully implement its quality control program in southern Afghanistan by requiring the
       contractor to ensure that it has sufficient personnel in place to establish a presence at more ANSF
       sites in the south, including hub locations in Farah and Zabul provinces, and conduct regular visits to
       facilities covered under that contract.


AGENCY COMMENTS

USACE provided written comments on a draft of this report, which are reproduced in appendix VI. In its
response, USACE concurred with the three recommendations and described specific steps it is taking to
address them.
Specifically, in response to our first recommendation that USACE complete and implement plans and
procedures to remove partial facilities from the O&M contracts, USACE stated that that Primary Contracting
Officer is working with Exelis to develop the proper procedure. Once this process is complete, USACE will
coordinate such a procedure with NTM-A for concurrence and full implementation.
With respect to our recommendation two that USACE implement standardized procedures for overseeing the
two contracts, USACE commented that the Regional Contacting Chief for the Transatlantic Division and the
Primary Contracting Officer for the two contracts will develop implementing procedures to ensure that oversight
is standardized and that contract quality assurance plans are consistently followed.
In response to our third recommendation that USACE-TAM direct Exelis to fully implement its quality control
program for the southern contract, USACE noted that Exelis and its primary contractor, Contrack International
Incorporated, have filled more quality control manager and inspector positions—15 out of 19 authorized—and
are recruiting additional personnel to fill the remaining vacancies. The subcontractor has also assigned quality
control inspectors part-time to Zabul and Farah provinces. Although staffing shortfalls still exist, the number of
quality control visits have increased, and more sites are being visited. USACE stated that it will continue to
monitor Exelis and will provide further direction if necessary.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                        Page 21
APPENDIX I - SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan Reconstruction’s
review of two U.S. Army Corps of Engineers (USACE) contracts with ITT Exelis Systems Corporation (Exelis) to
provide operation and maintenance (O&M) at Afghanistan National Security Forces (ANSF) facilities throughout
Afghanistan.44 This report assesses the extent to which (1) the North Atlantic Treaty Organization Training
Mission-Afghanistan (NTM-A) and USACE are implementing efforts to develop the capacity of the ANSF to
sustain their facilities after full transition in 2014, (2) Exelis has implemented the O&M contracts within the
contracts’ terms, and (3) USACE and Exelis have provided oversight of the contracts. When we initiated this
audit, the Department of Defense Office of Inspector General was conducting a related audit of the O&M
contracts to determine whether the training portion of the contracts was effective in developing the ANSF’s
infrastructure maintenance capabilities.45 To avoid duplication of efforts, we limited the scope of our first two
audit objectives to Exelis’ execution of the O&M services portion of the contract; however, we included invoiced
costs for training when calculating the total costs of the two contracts. This audit covered the period from
January 2009 to July 2012.
To assess the extent to which NTM-A and USACE are implementing efforts to develop the capacity of the ANSF
to sustain their facilities after full transition in 2014, we examined the NTM-A Engineer Directorate’s (ENG)
Infrastructure Training Advisory Group (ITAG) Campaign Plan, facility assessments, transition plans, and issue
papers. We also reviewed Exelis documents, including training plans, training tasks by skill trade, monthly
reports, and gap analyses, as well as training requirements in the two O&M contracts. We examined prior
Department of Defense Office Inspector General reports on O&M training46 and logistical challenges.47 We
observed O&M training being conducted at the Kabul Military Training Center in Kabul during our site visit in
October 2011. In addition, we interviewed ENG and ITAG officials located in Kabul and at the various ANSF
sites we visited. We also interviewed USACE officials, including the Primary Contracting Officer (PCO), O&M
Branch Chiefs at the USACE Afghanistan Engineer District-North (TAN) and South (TAS), and others cognizant of
training efforts. We also interviewed Exelis officials and subcontractor officials with Contrack International
Incorporated officials, including program, site, and training managers.
To assess the extent to which Exelis has implemented the O&M contracts within the contracts’ terms, we
reviewed and analyzed the two O&M contracts—W912ER-10-D-0002 for facilities in northern Afghanistan and
W912ER-10-D-0003 for facilities in southern Afghanistan—as well as all executed task orders and
modifications and invoice packages Exelis submitted to the USACE Middle East District (TAM) from December
2010 to May 2012. In addition, we examined USACE contract funding tracking spreadsheets, facility lists, and
acquisition strategies developed during the pre-award phase of the contracts. We also reviewed various Exelis
documents, including quality control plans, site visit reports, preventative maintenance inspection schedules,
and incident reports. We reviewed the ITAG Campaign Plan, facility transition plans and issue papers, and
O&M contract funding analyses. We conducted site visits to a judgmental sample of 20 facilities covered



44 USACE awarded the O&M contracts to ITT Systems Corporation. In late 2011, the company changed its name to Exelis

Systems Corporation. USACE modified the contracts to reflect this name change. As a result, we will refer to the company
as Exelis in this report.
45 See DODIG-2012-104, DoD Needs to Improve Vocational Training Efforts to Develop the Afghan National Security Forces

Infrastructure Maintenance Capabilities, June 18, 1012.
46   See DODIG-2012-104.
47 See DODIG-2012-028, Assessment of U.S. Government and Coalition Efforts to Develop the Logistics Sustainment

Capability of the Afghan National Army, December 9, 1011.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                Page 22
under the northern and southern contracts. These facilities were located at 11 Afghan National Army (ANA)
and Afghan National Police (ANP) sites—7 ANA and 4 ANP—in Kabul, Kandahar, Uruzgan, Herat, Balkh, Paktya,
and Farah provinces. The facilities selected by contract and province were as follows:
        North contract (6 sites)
              Kabul: Kabul Military Training Center (ANA),48 Police District 3, and Pol-e-Charki Garrison (ANA)
              Paktya: Gardez Garrison (ANA)
              Balkh: Regional Logistics Center/Joint Regional Coordination Center (ANP) and Camp Shaheen
               (ANA)49
        South contract (5 sites)
              Kandahar: Camp Hero (ANA) and Joint Regional Afghanistan National Security Forces
               Compound (ANP)50
              Uruzgan: 8th Commando Camp (ANA)
              Farah: Farah Garrison (ANA)51
              Herat: Uniformed Police Regional Command Center
We selected these facilities from a population of 505 facilities—318 in the north and 187 in the south—covered
under the O&M contracts as of October 1, 2011. We considered several factors when making the selection:
monthly cost of O&M services, facility type, occupying Afghan security force, location, and USACE feedback on
security conditions and availability of agency assets to support the visits. See appendix V for more information
about these sites and the facilities visited. Given the type and size of our sample, the results cannot be
projected to the entire population of facilities covered under the contracts, and should be considered only to
provide information regarding Exelis’ performance at those sites sampled. We also discussed issues we
identified with USACE officials to determine the extent to which they had noted similar issues at other ANSF
facilities. In addition, we interviewed USACE Transatlantic Division officials, including the PCO at USACE-TAM;
O&M officials at USACE-TAN and USACE-TAS; Administrative Contracting Officers at USACE-TAN and USACE-TAS;
and Contracting Officer’s Representatives (COR). We interviewed Exelis officials, including the program, quality
control, and contracts managers, and Contrack International Incorporated officials. We also interviewed ENG
officials, including the Director, O&M Branch Chief, ITAG Officer in Charge, and ITAG representatives at
assigned to facilities we visited. We also interviewed the ANA Facility Engineer at Camp Hero and the
Commander and Deputy Commander at the 8th Commando Camp.
To assess the extent to which USACE and Exelis have provided oversight of the contracts, we reviewed and
analyzed the two O&M base contracts, task orders, and modifications as well as contractor invoices. We
reviewed USACE acquisition strategies and contract planning documents and relevant sections and clauses of
the Federal Acquisition Regulation and USACE’s Engineer Regulation. We also reviewed prior audits of contract
oversight USACE and the Government Accountability Office’s Framework for Assessing the Acquisition Function




48
  We previously reported on construction of this facility. See SIGAR Audit-12-2, Better Planning and Oversight Could Have
Reduced Construction Delays and Costs at the Kabul Military Training Center, October 26, 2011.
49 We previously reported on construction of this facility. See SIGAR Audit-11-9, ANA Facilities at Mazar-e-Sharif and Herat

Generally Met Construction Requirements, but Contractor Oversight Should Be Strengthened, April 25, 2011.
50
 We previously reported on construction of this facility. See SIGAR Audit-10-12, ANP Compound at Kandahar Generally
Met Contract Terms but Has Project Planning, Oversight, and Sustainability Issues, July 22, 2010.
51We previously reported on construction of this facility. See SIGAR Audit-10-14, ANA Garrison at Farah Appeared Well
Built Overall but Some Construction Issues Should Be Addressed, July 30, 2010.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                   Page 23
at Federal Agencies.52 We analyzed all USACE quality assurance reports submitted by CORs from January to
September 2011 and a random sample of 210 Afghan Quality Assurance Representatives (AQAR) submitted
from April to October 2011. We selected 105—15 for each month—from a population of 7,119 reports
submitted for the northern contract and 643 submitted for the southern contract. Although we did not use the
results of our sample analysis make projections to the entire population of AQAR reports submitted, we did use
the analysis to demonstrate the extent to which USACE oversight varied both across and within the northern
and southern contracts. We also reviewed Exelis documents, including quality control management plans, site
inspection reports, and inspector training plans. We conducted site visits to a judgmental sample of 20
facilities located at 11 ANSF sites in 7 provinces. We interviewed the PCO, USACE-TAN and USACE-TAS O&M
officials, CORs, ITAG representatives, and ANA officials at two sites. We also interviewed Exelis and Contrack
International Incorporated officials, including program, site, and quality control managers.
This report is one in a series of SIGAR performance audits focused on reconstruction contract outcomes, costs,
and oversight.
We did not use or rely on computer-processed data for the purposes of the audit objectives. With respect to
assessing internal controls, we reviewed compliance with the Federal Acquisition Regulation as part of our
second objective. The results of our assessment are included in the body of this report.
We conducted work in Kabul, Kandahar, Uruzgan, Herat, Balkh, Paktya, and Farah provinces in Afghanistan
from July 2011 to October 2012 in accordance with generally accepted government auditing standards. These
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objectives. This
audit was conducted under the authority of Public Law No. 110-181, as amended; the Inspector General Act of
1978; and the Inspector General Reform Act of 2008.




52   GAO-05-218G, Framework for Assessing the Acquisition Function at Federal Agencies, September 2005.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                        Page 24
APPENDIX II - COST STRUCTURE OF O&M CONTRACTS AND SERVICES
PROVIDED

The northern and southern operation and maintenance (O&M) contracts for Afghanistan National Security
Forces (ANSF) facilities—W912ER-10-D-0002 and W912ER-10-D-0003, respectively—are firm-fixed-price
indefinite delivery/indefinite quantity service contracts valued at $800 million. Both contracts consist of 1
base year plus 4 option years. The northern contract, valued at $450 million over the 5 years, allocates $75
million for the base year and first option year, and $100 million for the last 3 option years. Under the southern
contract, $50 million is allocated for the base year with $75 million allocated for each option year for a total
contract value of $350 million.
The U.S. Army Corps of Engineers Middle East District (USACE-TAM) allocates funding to the contracts through
contract line items. The base contract line item for each contract year corresponds to the total funding
capacity available for that year. USACE-TAM then allocates the funding available for each year to various sub-
contract lines items against which ITT Exelis Systems Corporation (Exelis), the prime contractor, submits
invoices for payment of incurred costs.53 Sub-contract line items include such cost categories as mobilization,
O&M, spare parts, warehousing, training, vehicles, and work orders. Because funding for the contracts is also
allocated by ANSF component, subcontract line items for army and police facilities are separate.
The two contracts require Exelis to provide services in 8 O&M functional areas (see table I).

Table I - Examples of Services Provided under the O&M Contracts by Functional Area
Buildings and structures maintenance              Maintenance and repair of identified buildings, structures, and associated
                                                  property equipment encompassing such trades as carpentry, mechanical,
                                                  plumbing, electrical, metal, roofing, and masonry.

Locksmith functions                               Provide duplicate keys, replace worn components of locks and cylinders,
                                                  and installing and maintaining all types and designs of locks.

Utility systems operation and maintenance         Operation, repair, and maintenance of water production storage and
                                                  distribution systems; waste water treatment plants and water wells; and
                                                  power generation plants and substations.

Heating, ventilation, and air conditioning        Operation, maintenance, repair, and replacement of heating, ventilating,
systems operation and maintenance                 and air conditioning equipment and systems, including all air distribution
                                                  systems, hot water pumps, and vacuum systems.

Grounds maintenance*                              Erosion control; clean up of debris, drains, and ditches; and snow removal.

Force protection maintenance                      Maintenance and repair of T-walls, security fences, guard towers, guard
                                                  houses, and other access control devices.

Surfaced area maintenance                         Maintenance and repair of roadways, parking lots, trails, and bridges.

Pest Control                                      Prevention and control of mosquitoes, termites, ants, flies, and other
                                                  nuisance pests.
Source: USACE O&M contracts W912ER-10-D-0003.                        *Grounds maintenance does not include landscaping.




53   The contractor cannot charge costs to the base contract line items.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                    Page 25
APPENDIX III - TASK ORDERS AND MODIFICATIONS TO THE NORTHERN O&M
CONTRACT, W912ER-10-D-0002

The U.S. Army Corps of Engineers (USACE) Middle East District (TAM) awarded the northern operation and
maintenance (O&M) contract—W912ER-10-D-0002—to ITT Exelis Systems Corporation on July 26, 2010, to
provide O&M at Afghan National Army (ANA) and Afghan National Police (ANP) facilities across northern
Afghanistan. With the official award, the contract’s initial funding capacity was capped at $75 million for
phase-in and the base year. USACE-TAM exercised option year two of the contract on December 9, 2011,
almost 8 months earlier than expected, to increase contract funding capacity due to a shortfall in funding for
the first option year. As of June 2012, USACE-TAM had made 13 modifications to the base contract (see table
II).54

Table II - Modifications to Northern O&M Base Contract W912ER-10-D-0002
Modification       Effective Date                               Purpose                                Cost/Schedule
 Number                                                                                                   Change

P00001          August 13, 2010         Transfers contracting office authority to the USACE        No change
                                        Afghanistan Engineer District-North, incorporates new
                                        clauses, and deletes clauses not applicable to the
                                        contract requirements.

P00002          October 7, 2010         Incorporates revisions to the performance of work          No change
                                        statement and incorporates the Department of
                                        Defense's contract security classification specification
                                        form.

P00003          October 29, 2010        Revises performance of work statement and updates          No change
                                        contract administration data.

P00004          December 21, 2010       Modifies the performance of work statement.                No change

P00005          February 23, 2011       Clarifies the definition of the province factor.           No change

P00006          March 15, 2011          Delegates administrative contracting officer authority     No change
                                        to the Afghanistan Engineering District-South with the
                                        Middle East District retaining primary contracting
                                        officer authority.

P00007          April 6, 2011           Incorporates contract manpower reporting clause.           No change

P00008          June 4, 2011            Exercises Option Period 1, changes contract ordering       Changed ordering
                                        period, and increases contract funding capacity.           period to July 26, 2010,
                                                                                                   through July, 26 2012;
                                                                                                   increased contract
                                                                                                   capacity by $75 million
                                                                                                   to $150 million

P00009          July 10, 2011           Adds Panjsher province to the contract.                    No change



54Modifications to the base O&M contract do not allocate funds to pay for the various costs the contractor incurs while
implementing the contract. Rather, such modifications alter the terms of the contract and add funding capacity for services
provided.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                 Page 26
Table II - Modifications to Northern O&M Base Contract W912ER-10-D-0002
Modification       Effective Date                              Purpose                               Cost/Schedule
 Number                                                                                                 Change

P00010          December 9, 2011       Exercises Option Period 2, changes contract ordering      Extended ordering
                                       period, and increases contract funding capacity.          period through July 26,
                                                                                                 2013; increased
                                                                                                 contract capacity by
                                                                                                 $100 million to $250
                                                                                                 million

P00011          May 1, 2012            Changes contractor name from ITT Systems                  No change
                                       Corporation to Exelis Systems Corporation in all
                                       contract documents.

P00012          May 3, 2012            Revises performance of work statement and deletes         No change
                                       modification P00004.

P00013          May 31, 2012           Incorporates a new quality assurance surveillance plan    No change
                                       into the contract and deletes the previous plan.
Source: SIGAR analysis of USACE contract W912ER-10-D-0002 and modifications.

USACE-TAM executed task order 0001 of the northern O&M contract on July 28, 2010, which served as the
notice to proceed for the contract and initiated a 90-day phase in period. The task order defined the period of
performance as July 29, 2010, to October 26, 2010, and set initial contract costs at $11,441,105.37. USACE-
TAM modified the task order once on October 15, 2010. The purpose of this modification was to change the
description of the mobilization and demobilization sub-contract line item from ANA to ANP, and extend the
periods of performance of several sub-contract line items to October 31 or November 30, 2010, depending on
the line item. The total cost of the contract did not change.
USACE-TAM executed task order 0002 on October 19, 2010 to provide funding for the base year. The task
order defined the period of performance for the task order as November 1, 2010, to April 30, 2011.55 In
addition, the task order increased the total contract cost by $35,730,910.74 to $47,172,016.11.
Modification 9 extended the period of performance of the task order to July 26, 2011. Table III lists the
modifications to task order 2 of the northern O&M contract.

Table III - Modifications to Northern O&M Base W912ER-10-D-0002, Task Order 0002
Modification                                                                                  Cost/Schedule Change
 Number            Effective Date                          Purpose

01              November 5, 2010        Changes periods of performance for base O&M        Changed period of performance
                                        contract line item and several sub-contract line   end date to March 31, 2011
                                        items.

02              November 30, 2010       Provides additional O&M funding; describes         Increased total funded amount
                                        the Contracting Officer's and Contracting          by $12,000,000 to
                                        Officer's Representative's responsibilities, and   $59,172,016.11



55 The period of performance for the sub-contract line items under task order 0002 was either December 1, 2010, to April

30, 2011, or November 1, 2010, to March 31, 2011, depending on the line item.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                               Page 27
Table III - Modifications to Northern O&M Base W912ER-10-D-0002, Task Order 0002
Modification                                                                               Cost/Schedule Change
 Number           Effective Date                          Purpose
                                      provides additional billing instructions.

03             December 1, 2010       Adds facilities to task order 2.                  No change

04             December 21, 2010      Revises attachment listing pricing of O&M         No change
                                      services at identified facilities.

05             January 24, 2011       Replaces attachment listing pricing of O&M        Decreased total contract cost
                                      services at identified facilities.                by $10,118,860.15 to
                                                                                        $49,053,155.96

06             January 25, 2011       Corrects the ANA/ANP identification of several    No change
                                      facilities.

07             February 5, 2011       Incorporates bulk water delivery and septic       Increased total contract cost by
                                      removal services at 21 locations into contract.   $300,000.00 to
                                                                                        $49,353,155.96

08             March 10, 2011         Adds 19 facilities to task order 2.               Increased total contract cost by
                                                                                        $78,480.97 to
                                                                                        $49,431,636.93

09             April 1, 2011          Changes period of performance of task order       Extended period of
                                      2.                                                performance to July 26, 2011;
                                                                                        increased total contract cost by
                                                                                        $24,333,557.78 to
                                                                                        $73,765,194.71

10             May 1, 2011            Adds 11 facilities into task order 2.             Increased total contract cost by
                                                                                        $465,221.54 to
                                                                                        $74,230,416.25

11             May 28, 2011           Adds 4 facilities into task order 2.              Increased total contract cost by
                                                                                        $25,091.34 to
                                                                                        $74,255,507.59

12             July 25, 2011          Reclassifies sites and facilities where O&M and   Increased total contract cost by
                                      repair services were being performed under        $19,167,677.27 to
                                      task order 2.                                     $93,423,184.86

13             September 9, 2011      Incorporates bulk water delivery and septic       Increased total contract cost by
                                      removal services at legacy ANA locations          $931,808.19 to
                                      throughout northern Afghanistan into contract.    $94,354,993.05

14             September 23, 2011     Adds funding to spare parts sub-contract line     Increased total contract cost by
                                      items.                                            $318,139.16 to
                                                                                        $94,673,132.21
Source: SIGAR analysis of USACE contract W912ER-10-D-0002-0002 and modifications.

USACE-TAM executed task order 0003 on July 27, 2011 to provide funding for option year one. The task order
defined the period of performance for the task order as July 27, 2011, to December 26, 2011. In addition, the
task order increased the total contract cost by $51,462,723.35 to $146,135,855.56. Modification 7


SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                             Page 28
extended the period of performance to July 26, 2012 and substantially increased the contact cost by over $77
million. Table IV lists the modifications to task order 3 of the northern O&M contract.

Table IV - Modifications to Northern O&M Contract W912ER-10-D-0002, Task Order 0003
Modification                                                                               Cost/Schedule Change
 Number           Effective Date                            Purpose

01             August 26, 2011         Replaces fiscal year 2011 ANSF funds with fiscal   No change
                                       year 2010 ANSF funds.

02             August 31, 2011         Adds 6 facilities to task order 3 and increases    Increased total funded
                                       the total cost of the contract.                    amount by $434,026.25 to
                                                                                          $146,569.881.81

03             September 19, 2011      Adds requirement and performance or work
                                       statement for phase 2 of vocational and
                                       technical training at the ANA's Construction and
                                       Property Management Department (CPMD);
                                       defines the period of performance of the           Increased total contract cost
                                       modification as October 8, 2011, to December       by $107,401.02 to
                                       26 2011.                                           $146,677,282.83

04             November 1, 2011        Adds 2 facilities to task order 3.                 Increases total contract cost
                                                                                          by $9,753.12 to
                                                                                          $146,687,035.95

05             December 1, 2011        Adds 3 facilities to task order 3.                 Increased total contract cost
                                                                                          by $7,437.15 to
                                                                                          $146,694,473.10

06             December 7, 2011        Adds generator classes to training at CPMD.        Increased total contract cost
                                                                                          by $28,797.90 to
                                                                                          $146,723,271.00

07             December 26, 2011       Changes the period of performance for Option       Extended period of
                                       Period 1.                                          performance to July 26,
                                                                                          2012; increased total funded
                                                                                          amount by $77,391,854.95
                                                                                          to $224,115,125.95

08             January 18, 2012        Adds 4 facilities to task order 3.                 Increased total contract cost
                                                                                          by $877,178.87 to
                                                                                          $224,992,304.82

09             March 8, 2012           Adds 3 facilities to task order 3 and removes 1    Decreased total contract
                                       facility.                                          cost by $1,101,845.15 to
                                                                                          $223,890,459.67

10             March 24, 2012          Adds 1 facility to task order 3.                   Increased total contract cost
                                                                                          by $75,970.86 to
                                                                                          $223,966,430.53

11             April 3, 2012           Add vehicle relocation costs.                      Increased total contract cost
                                                                                          by $19,401.71 to
                                                                                          $223,985,832.24



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                             Page 29
Table IV - Modifications to Northern O&M Contract W912ER-10-D-0002, Task Order 0003
Modification                                                                               Cost/Schedule Change
 Number           Effective Date                           Purpose

12             April 10, 2012          Adds Computerized Maintenance Management           Increased total contract cost
                                       System Phase 1 demonstration to task order 3.      by $18,093.80 to
                                                                                          $224,003,926.04

13             May 21, 2012            Adds fee to relocate a vehicle from one site to    Increased total contract cost
                                       another.                                           by $527 to
                                                                                          $224,004,453.04

14             June 5, 2012            Adds 8 facilities to task order 3 and removes 61   Decreased total contract
                                       facilities.                                        cost by $1,908,770.76 to
                                                                                          $222,095,682.28
Source: SIGAR analysis of USACE contract W912ER-10-D-0002-0003 and modifications.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                             Page 30
APPENDIX IV - TASK ORDERS AND MODIFICATIONS TO THE SOUTHERN O&M
CONTRACT, W912ER-10-D-0003

The U.S. Army Corps of Engineers (USACE) Middle East District (TAM) awarded the southern operation and
maintenance (O&M) contract—W912ER-10-D-0003—to ITT Exelis Systems Corporation on July 27, 2010, to
provide O&M at Afghan National Army (ANA) and Afghan National Police (ANP) facilities throughout southern
Afghanistan. With the official award, the contract’s initial funding capacity was capped at $50 million for
phase-in and the base year. As of June 2012, USACE-TAM had made 11 modifications to the base contract
(see table V).56

Table V - Modifications to Southern O&M Base Contract W912ER-10-D-0003
Modification                                                                                       Cost/Schedule
Number          Effective Date          Purpose                                                    Change

P00001          August 13, 2010         Transfers contracting office authority to the USACE        No change
                                        Afghanistan Engineer District-South, incorporates new
                                        clauses, and deletes clauses not applicable to the
                                        contract requirements.

P00002          October 7, 2010         Incorporates revisions to the performance of work          No change
                                        statement and incorporates the Department of
                                        Defense's contract security classification specification
                                        form.

P00003          October 29, 2010        Revises performance of work statement and updates          No change
                                        contract administration data clarifying that the USACE
                                        Middle East District retains primary contracting officer
                                        authority.

P00004          December 21, 2010       Modifies the performance of work statement.                No change

P00005          February 23, 2011       Clarifies the definition of the province factor.           No change

P00006          March 15, 2011          Delegates administrative contracting officer authority     No change
                                        to the Afghanistan Engineering District-South with the
                                        Middle East District retaining primary contracting
                                        officer responsibilities.

P00007          March 20, 2011          Incorporates the Daykundi province and its province        No change
                                        factor into the contract.

P00008          April 6, 2011           Incorporates contract manpower reporting clause.           No change

P00009          June 4, 2011            Exercises Option Period 1, changes contract ordering       Changed ordering
                                        period, and increases contract funding capacity.           period to July 28, 2010,
                                                                                                   through July, 27 2012;
                                                                                                   increased contract
                                                                                                   capacity by $75 million



56Modifications to the base O&M contract do not allocate funds to pay for the various costs the contractor incurs while
implementing the contract. Rather, such modifications alter the terms of the contract and add funding capacity for services
provided.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                 Page 31
Table V - Modifications to Southern O&M Base Contract W912ER-10-D-0003
Modification                                                                                        Cost/Schedule
Number          Effective Date          Purpose                                                     Change
                                                                                                    to $125 million

P00010          May 1, 2012             Changes contractor name from ITT Systems                    No change
                                        Corporation to Exelis Systems Corporation in all
                                        contract documents.

P00011          May 3, 2012             Incorporates a revised performance of work statement        No change
                                        and deletes modification P00004.
Source: SIGAR analysis of USACE contract W912ER-10-D-0003 and modifications.

USACE-TAM executed task order 0001 of the southern O&M contract on July 30, 2010, which served as the
notice to proceed for the contract and initiated a 90-day phase in period. The task order defined the period of
performance as July 30, 2010, to October 27, 2010, and set initial contract costs at $10,340,618.13. USACE-
TAM modified the task order once on October 15, 2010. The purpose of this modification was to extend the
periods of performance of several sub-contract line items to October 31 or November 30, 2010, depending on
the line item. The total cost of the contract did not change.
USACE-TAM executed task order 0002 on October 29, 2010 to provide funding for the base year. The task
order defined the period of performance for the task order as November 1, 2010, to April 30, 2011.57 In
addition, the task order increased the total contract cost by $22,938,896.47 to $33,279,514.60.
Modification 1A extended the period of performance of the task order to July 27, 2011. Table VI lists the
modifications to task order 0002 of the southern O&M contract.

Table VI - Modifications to Southern O&M Contract W912ER-10-D-0003, Task Order 0002
Modification                                                                                        Cost/Schedule
Number          Effective Date          Purpose                                                     Change

01              November 5, 2010        Changes the ordering period for the base year contract      Changed the ordering
                                        line item and the period of performance for several         period and period of
                                        sub-contract line items.                                    performance end date
                                                                                                    to March 31, 2011

02              November 30, 2010       Describes the Contracting Officer's and Contracting         Increased total contract
                                        Officer's Representative's responsibilities, and provides   cost by $12,000,000 to
                                        additional billing instructions.                            $45,279,514.60

03              December 1, 2010        Adds attachment listing ANSF facilities to be added to
                                        the contract from December 1 to January 2011.               No change

04              December 21, 2010       Revises attachment listing pricing of O&M services at
                                        identified facilities.                                      No change

05              February 5, 2011        Incorporates septic removal services at 19 locations
                                        into contract.                                              No change




57 The period of performance for the sub-contract line items under task order 2 was either December 1, 2010, to April 30,

2011, or November 1, 2010, to March 31, 2011, depending on the line item.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                    Page 32
Table VI - Modifications to Southern O&M Contract W912ER-10-D-0003, Task Order 0002
Modification                                                                                 Cost/Schedule
Number         Effective Date        Purpose                                                 Change

06             March 10, 2011        Adds 46 facilities to task order 2 and deobligates      Decreased total contract
                                     funding from two sub-contract line items.               cost by
                                                                                             $11,102,676.02 to
                                                                                             $34,176,838.58

07             March 15, 2011        Corrects a funding error on modification 06 of task     Increased total contract
                                     order 2.                                                cost by $8,920.29 to
                                                                                             $34,185,758.87

1A             April 1, 2011         Changes the period of performance for task order 2.     Extended period of
                                                                                             performance to July 27,
                                                                                             2011 (end of base
                                                                                             year); increased total
                                                                                             contract cost by
                                                                                             $11,704,059.25 to
                                                                                             $45,889,818.12

1B             April 1, 2011         Corrects a funding error on modification 1A of task     Increased total contract
                                     order 2.                                                cost by $641,019.71 to
                                                                                             $46,530,897.83

1C             April 1, 2011         Adds 19 facilities into task order 2.                   Increased total contract
                                                                                             cost by $896,971.95 to
                                                                                             $47,427,869.78

1D             May 1, 2011           Adds 3 facilities into task order 2.                    Increased total contract
                                                                                             cost by $3,396.00 to
                                                                                             $47,431,265.78

08             June 7, 2011          Removes 2 facilities from task order 2.                 Decreased total contract
                                                                                             cost by $26,550.85 to
                                                                                             $47,404,714.93

09             October 21, 2011      Incorporates septic removal services at ANA locations   Increased total contract
                                     throughout southern Afghanistan into contract.          cost by $210,558.50 to
                                                                                             $47,615,273.43
Source: SIGAR analysis of USACE contract W912ER-10-D-0003-0002 and modifications.



USACE-TAM executed task order 0003 on July 27, 2011 to provide funding for option year one. The task order
defined the period of performance for the task order as July 28, 2011, to July 27, 2012. In addition, the task
order increased the total contract cost by $55,505,814.24 to $103,121,087.67. Table VII lists the
modifications to task order 0003 of the southern O&M contract.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                           Page 33
Table VII - Modifications to Southern O&M Contract W912ER-10-D-0003, Task Order 0003
Modification                                                                                       Cost/Schedule
Number         Effective Date        Purpose                                                       Change

01             September 1, 2011     Replaces fiscal year 2011 ANSF funds with fiscal year         No change
                                     2010 ANSF funds.

02             October 12, 2011      Adds 6 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $119,438.99 to
                                                                                                   $103,240,526.66

03             November 1, 2011      Adds 8 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $327,454.86 to
                                                                                                   $103,567,981.52

04             November 30, 2011     Adds 2 facilities to task order 3 and removes 1 facility.     Increased total contract
                                                                                                   cost by $27,406.97 to
                                                                                                   $103,595,388.49

05             December 30, 2011     Adds 3 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $79,766.73 to
                                                                                                   $103,675,155.22

06             February 21, 2012     Adds 4 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $54,948.70 to
                                                                                                   $103,730,103.92

07             March 29, 2012        Adds 2 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $15,941.41 to
                                                                                                   $103,746,045.33

08             May 23, 2012          Corrects modification 04 of task order 3 and the              Increased total contract
                                     attachment listing ANSF facilities covered under the          cost by $85,684.12 to
                                     contract to reflect that no facilities were removed           $103,831,729.45
                                     under that modification.

09             May 24, 2012          Corrects carry-over errors in facilities attachment listing   No change
                                     ANSF facilities covered under the contract.

10             May 30, 2012          Adds 6 facilities to task order 3.                            Increased total contract
                                                                                                   cost by $37,344.25 to
                                                                                                   $103,869,073.70
Source: SIGAR analysis of USACE contract W912ER-10-D-0003-0003 and modifications.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                 Page 34
APPENDIX V - ANSF SITE DETAILS

To assess the extent to which ITT Exelis Systems Corporation had implemented the two operation and
maintenance (O&M) contracts within the contracts’ terms, we selected a judgmental sample of 20 Afghanistan
National Security (ANSF) facilities located at 11 Afghan National Army (ANA) and Afghan National Police (ANP)
sites to visit from October 2011 to January 2012. These facilities were located in Kabul, Kandahar, Uruzgan,
Herat, Balkh, Paktya, and Farah provinces. Figure I shows the locations of the ANSF sites we visited.


Figure I - Locations of ANSF Sites Visited during Audit




Source: SIGAR site visit reports.


We selected these facilities based on a combination of criteria: monthly cost of O&M services, facility type,
occupying Afghan security force, location, and USACE feedback on security conditions and availability of agency
assets to support the visits. As of June 30, 2012, O&M costs at these facilities were approximately $42
million.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                     Page 35
NORTHERN O&M CONTRACT

We conducted site visits to 9 facilities at 6 ANSF sites covered under the northern O&M contracts. These
consisted of 4 ANA and 2 ANP sites. O&M services at these facilities cost approximately $27.66 million as of
June 30, 2012.

Police District 3, Kabul

                                                                        Resident ANSF Entity
                                                                        ANP
                                                                        Facilities Visited and Type (if different)
                                                                        Uniformed Police district headquarters
                                                                        Approximate Number of Structures Covered58
                                                                        16
                                                                        Example of Structures Covered
                                                                        Barracks, offices, warehouse, latrine, septic tank
                                                                        Date Added to O&M Contract
                                                                        November 1, 2010
                                                                        Approximate Monthly O&M Costs for Facilities Visited
                                                                        $7,144
                                                                        Estimated Total O&M Costs for Facilities Visited
                                                                        (as of June 30, 2012)
                                                                        $139,879
Source – SIGAR site inspection, January 16, 2012


Pol-e-Charki ANA Garrison, Kabul


                                             Resident ANSF Entity
                                                                 ANA
                           Facilities Visited and Type (if different)
                                      Corps headquarters and ranges
                    Approximate Number of Structures Covered
                                             152 plus ranges
                                   Example of Structures Covered
  Barracks, guard towers, waste water treatment facility, power plant,
                                                   warehouse, clinic
                                     Date Added to O&M Contract
                                                  December 1, 2010
         Approximate Monthly O&M Costs for Facilities Visited
                                                          $316,234
               Estimated Total O&M Costs for Facilities Visited
                                      (as of June 30, 2012)
                                                         $5.9 million      Source – SIGAR site inspection, November 8, 2011




58 The approximate number of structures is based on standard USACE facility specifications rather than specific facility

plans and property listings.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                           Page 36
Kabul Military Training Center, Kabul


                                                                            Resident ANSF Entity
                                                                            ANA
                                                                            Facilities Visited and Type (if different)
                                                                            Corps headquarters, Corps support battalion, and ranges
                                                                            Approximate Number of Structures Covered
                                                                            228 plus ranges
                                                                            Example of Structures Covered
                                                                            Barracks, reception house, guard towers, waste water
                                                                            treatment facility, power plant, warehouse, medical clinic

                                                                            Date Added to O&M Contract
                                                                            December 1, 2010
                                                                            Approximate Monthly O&M Costs for Facilities Visited
                                                                            $431,719
                                                                            Estimated Total O&M Costs for Facilities Visited
                                                                            (as of June 30, 2012)
                                                                            $8.0 million
Source – SIGAR site inspection, November 12, 2011




Gardez Garrison/Camp Thunder, Gardez, Paktya Province


                                     Resident ANSF Entity
                                                         ANA
                  Facilities Visited and Type (if different)
                                         Corps headquarters
            Approximate Number of Structures Covered
                                                152
                          Example of Structures Covered
       Barracks, reception house, guard towers, waste water
    treatment facility, power plant, warehouse, medical clinic
                            Date Added to O&M Contract
                                          December 1, 2010
  Approximate Monthly O&M Costs for Facilities Visited
                                                   $310,395
       Estimated Total O&M Costs for Facilities Visited
                              (as of June 30, 2012)
                                                 $5.8 million

                                                                 Source – SIGAR site inspection, January 10, 2012




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                              Page 37
Regional Logistics Center/Joint Regional Coordination Center, Mazar-e Sharif, Balkh Province


                                    Resident ANSF Entity
                                                       ANP
                 Facilities Visited and Type (if different)
       Uniformed Police regional headquarters/joint regional
             Afghanistan National Security Forces compound
            Approximate Number of Structures Covered
                                                  38
                       Example of Structures Covered
Department buildings, barracks, laundry, dining facility,
     water treatment facility, power generation facility,
                        vehicle maintenance, storage
                           Date Added to O&M Contract
                                         November 1, 2010
  Approximate Monthly O&M Costs for Facilities Visited
                                                   $30,706
        Estimated Total O&M Costs for Facilities Visited
                               (as of June 30, 2012)
                                                 $601,239      Source – SIGAR site inspection, January 4, 2012




Mazar-e Sharif Garrison/Camp Shaheen, Mazar-e Sharif, Balkh Province


                                                                      Resident ANSF Entity
                                                                      ANA
                                                                      Facilities Visited and Type (if different)
                                                                      Corps headquarters
                                                                      Approximate Number of Structures Covered
                                                                      152
                                                                      Example of Structures Covered
                                                                      Barracks, reception house, guard towers, waste water treatment
                                                                      facility, power plant, warehouse, medical clinic
                                                                      Date Added to O&M Contract
                                                                      December 1, 2010
                                                                      Approximate Monthly O&M Costs for Facilities Visited
                                                                      $387,780
                                                                      Estimated Total O&M Costs for Facilities Visited
                                                                      (as of June 30, 2012)
                                                                      $7.2 million

Source – SIGAR site inspection, January 3, 2012




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                        Page 38
SOUTHERN O&M CONTRACT

We visited 11 facilities at 5 ANSF sites covered under the northern O&M contracts. These consisted of 3 ANA
and 2 ANP sites. O&M services at these facilities cost approximately $14.34 million as of June 30, 2012.

Camp Hero, Kandahar Province

                                                                    Resident ANSF Entity
                                                                     ANA
                                                                    Facilities Visited and Type (if different)
                                                                    Kandahar Garrison (Corps headquarters), ANA Commando Camp
                                                                    (kandak), 205th Corps Support Battalion (billeting), and hospital
                                                                    addition
                                                                    Approximate Number of Structures Covered
                                                                    193
                                                                    Example of Structures Covered
                                                                    Barracks, reception house, guard towers, waste water
                                                                    treatment facility, power plant, warehouse, medical clinic,
                                                                    dining facility, small arms storage
                                                                    Date Added to O&M Contract
                                                                    December 2, 201059
                                                                    Approximate Monthly O&M Costs for Facilities Visited
                                                                    $459,012
Source – SIGAR site inspection, December 21, 2011                   Estimated Total O&M Costs for Facilities Visited
                                                                    (as of June 30, 2012)
                                                                    $8.4 million


Joint Regional Afghanistan National Security Forces Compound, Kandahar Province

                                    Resident ANSF Entity
                                                   ANP
               Facilities Visited and Type (if different)
 Afghanistan National Civil Order Police headquarters;
        Regional Logistics Center; Border Police zone
headquarters; Uniformed Police regional headquarters
            Approximate Number of Structures Covered
                                                180
                          Example of Structures Covered
      Barracks, power plant, warehouse, storage, dining
 facilities, administration buildings, water well building,
                          training facility, vehicle parking
                            Date Added to O&M Contract
                                     December 2, 2010
  Approximate Monthly O&M Costs for Facilities Visited
                                           $124,631
        Estimated Total O&M Costs for Facilities Visited
                               (as of June 30, 2012)           Source – SIGAR site inspection, December 12, 2011
                                          $2.3 million




59 USACE added the facilities we visited to the southern O&M contract on different days. The date provided indicates when

the first facility at the site was added to the contract.



SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                           Page 39
8th Commando Camp, Tarin Kot, Uruzgan Province


                                                                         Resident ANSF Entity
                                                                         ANA
                                                                         Facilities Visited and Type (if different)
                                                                         Kandak
                                                                         Approximate Number of Structures Covered
                                                                         35
                                                                         Example of Structures Covered
                                                                         Barracks, administration building, dining facility, storage,
                                                                         sewage treatment, clinic, water tank
                                                                         Date Added to O&M Contract
                                                                         January 1, 2011
                                                                         Approximate Monthly O&M Costs for Facilities Visited
                                                                         $33,141
                                                                         Estimated Total O&M Costs for Facilities Visited
                                                                         (as of June 30, 2012)
                                                                         $583,714
Source – SIGAR site inspection, December 11, 2011




Farah Garrison, Farah Province



                                     Resident ANSF Entity
                                                         ANA
                  Facilities Visited and Type (if different)
                                         Corps headquarters

            Approximate Number of Structures Covered
                                                152
                          Example of Structures Covered
       Barracks, reception house, guard towers, waste water
    treatment facility, power plant, warehouse, medical clinic
                            Date Added to O&M Contract
                                          December 2, 2010
 Approximate Monthly O&M Costs for Facilities Visited
                                                   $150,667

       Estimated Total O&M Costs for Facilities Visited
                               (as of April 30, 2012)
                                                 $2.5 million

                                                                 Source – SIGAR site inspection, December 12, 2011




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                                 Page 40
Uniformed Police Regional Command Center, Herat Province



                                     Resident ANSF Entity
                                                        ANP
                  Facilities Visited and Type (if different)
        Uniformed Police regional headquarters/joint regional
              Afghanistan National Security Forces compound

            Approximate Number of Structures Covered
                                                  38
                       Example of Structures Covered
Department buildings, barracks, laundry, dining facility,
     water treatment facility, power generation facility,
                        vehicle maintenance, storage
                            Date Added to O&M Contract
                                          December 2, 2010
   Approximate Monthly O&M Costs for Facilities Visited
                                                    $14,392
        Estimated Total O&M Costs for Facilities Visited
                               (as of June 30, 2012)            Source – SIGAR site inspection, December 13, 2011
                                                  $267,408




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                                                                  Page 41
APPENDIX VI - COMMENTS FROM U.S. ARMY CORPS OF ENGINEERS




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities         Page 42
                                                     Now
                                                     recommendation
                                                     2.




                                                     Now
                                                     recommendation
                                                     3.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities    Page 43
                                                     Now
                                                     recommendation
                                                     1.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities    Page 44
APPENDIX VII - ACKNOWLEDGMENTS

Monica Brym, Director of Special Projects
Jenniffer Wilson, Deputy Assistant Inspector General for Audits (Kabul)
Gabriele Tonsil, Analyst-in-Charge


The following staff assisted with fieldwork:
William “Lee” Dillingham, Senior Engineer
Daniel Domke, Senior Auditor
Bruce Gimbel, Senior Audit Manager
Lise Pederson, Senior Engineer


The following staff provided analytical support:
Christina Andersson, Senior Program Analyst
Emmitt Candler, Auditor
Ryan Heger, Program Analyst
Emmett Schneider, Auditor




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities                        Page 45
                                 This performance audit was
                                conducted under project code
                                        SIGAR-049A.




SIGAR Audit 13-1/O&M Contracts for ANSF Facilities             Page 46
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
